<html>
<title> - OVERSIGHT HEARING ON SALTON SEA STABILIZATION AND WATER QUALITY IMPROVEMENT</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
    OVERSIGHT HEARING ON SALTON SEA STABILIZATION AND WATER QUALITY 
                              IMPROVEMENT

=======================================================================

                           OVERSIGHT HEARING

                               before the

                    SUBCOMMITTEE ON WATER AND POWER

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                               __________

                OCTOBER 3, 1997, PALM DESERT, CALIFORNIA

                               __________

                           Serial No. 105-60

                               __________

           Printed for the use of the Committee on Resources



                                <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 45-367 CC                   WASHINGTON : 1998
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  LLOYD DOGGETT, Texas
MICHAEL D. CRAPO, Idaho

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director

                                 ------                                

               Subcommittee on Water and Power Resources

                JOHN T. DOOLITTLE, California, Chairman
KEN CALVERT, California              PETER A. DeFAZIO, Oregon
RICHARD W. POMBO, California         GEORGE MILLER, California
HELEN CHENOWETH, Idaho               OWEN B. PICKETT, Virginia
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     SAM FARR, California
WILLIAM M. (MAC) THORNBERRY, Texas   ADAM SMITH, Washington
JOHN B. SHADEGG, Arizona             RON KIND, Wisconsin
JOHN E. ENSIGN, Nevada               LLOYD DOGGETT, Texas
ROBERT F. SMITH, Oregon              ---------- ----------
CHRIS CANNON, Utah                   ---------- ----------
MICHAEL D. CRAPO, Idaho
                  Robert Faber, Staff Director/Counsel
                    Steve Lanich, Democratic Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held October 3, 1997.....................................     1

Statement of Members:
    Bono, Hon. Sonny, a Representative in Congress from the State 
      of California, prepared statement of.......................   105
    Calvert, Hon. Ken, a Representative in Congress from the 
      State of California........................................     6
    Doolittle, Hon. John T., a Representative in Congress from 
      the State of California....................................     3
        Prepared statement of....................................     4

Statement of Witnesses:
    Codekas, Tellis, Chairman, Salton Sea Authority..............     7
        Prepared statement of....................................    57
    Feinstein, Hon. Dianne, a Senator in Congress from the State 
      of California, prepared statement of.......................   107
    Gruenberg, Phil, Executive Officer, California Regional Water 
      Quality Control Board, Colorado River Basin Region.........    37
        Prepared statement of....................................    62
    Hardie, R. Wayne, Group Leader, Energy and Environmental 
      Analysis Group, Technology and Safety Assessment Division, 
      Los Alamos National Laboratory.............................    14
        Prepared statement of....................................    84
    Johnson, Robert, Regional Director, Lower Colorado Region, 
      Bureau of Reclamation, Department of the Interior..........     9
        Prepared statement of....................................    59
    Niver, Norman E., Salton Sea Citizens Advisory Committee.....    38
        Prepared statement of....................................    98
    Pena, Carlos, Project Manager, Mexicali Wastewater Project, 
      U.S. Section, International Boundary and Water Commission..    23
    Roberts, Philip A., Associate Dean, College of Natural and 
      Agricultural Sciences, University of California, Riverside.    41
        Prepared statement of....................................    64
    Stubchaer, Jim, Vice Chair, State Water Resources Control 
      Board, CAL-EPA.............................................    37
    Spear, Michael J., Regional Director, Pacific Region, U.S. 
      Fish and Wildlife Service, Department of the Interior......    11
        Prepared statement of....................................    78
    Veysey, Tom, representing the Salton Sea Authority Board of 
      Directors..................................................    17
        Prepared statement of....................................    60
    Zirschky, John H., Acting Assistant Secretary of the Army for 
      Civil Works................................................    43
        Prepared statement of....................................    67

Additional material supplied:
    California Department of Fish and Game, prepared statement of    70



    OVERSIGHT HEARING ON SALTON SEA STABILIZATION AND WATER QUALITY 
                              IMPROVEMENT

                              ----------                              


                        FRIDAY, OCTOBER 3, 1997

        U.S. House of Representatives, Subcommittee on 
            Water and Power, Committee on Resources, Palm 
            Desert, California.
    The Subcommittee met, pursuant to notice, at 10:09 a.m., in 
the Palm Desert Multi-Agency Library Community Room, College of 
the Desert, Palm Desert, California, Hon. John T. Doolittle 
(chairman of the Subcommittee) presiding.
    Members present: Representatives Doolittle and Calvert.
    Also present: Representatives Brown, Hunter, Lewis, and 
Bono.
    Staff present: Robert Faber, Staff Director/Counsel.
    Mr. Doolittle. The Subcommittee on Water and Power will 
come to order. Part of the thrill of having a field hearing is 
that we have these interesting situations with the logistics.
    In conjunction with that, ladies and gentlemen, although 
this is a Federal hearing, we're on state property and subject 
to the state fire regulations, and the people blocking the door 
back there are in violation of this code.
    We apologize for not having a bigger facility, but we're 
glad to have this kind of interest.
    A speaker is in the process of being set up out there in 
the lobby, but I'll have to ask that we can only have lined up 
one person deep along the walls. You're fine, but those in the 
back are going to have to clear that door, in order to be in 
compliance.
    So I would ask those of you who cannot find a space against 
the wall if you will go out there into the lobby. Hopefully, 
they've got a speaker set up so that you can hear the hearing, 
but we cannot have the door blocked, and I would ask those of 
you standing there to give way and go out into the foyer, so 
that we can be ready to go through the hearing.
    The Subcommittee is meeting today to hear testimony 
concerning Salton Sea stabilization and water quality 
improvement.
    I would like to commend Mr. Calvert for his efforts to 
bring this issue to my attention. Frankly, to get peace, I had 
to agree to yield and have a hearing here. So he did a good job 
in making that possible. He's a wonderful member of our 
Subcommittee, in addition to being chairman of his own 
Subcommittee, within the Science Committee of the House.
    I realize that this is an issue of great importance to all 
of the members of the Salton Sea Task Force, and I want to 
welcome them in participating with the Subcommittee this 
morning.
    Mr. Calvert, of course is--all of these gentlemen, except 
for me, are local representatives of the area. I want to 
especially express my appreciation to Mr. Bono and his staff 
for their assistance in providing logistical support to this 
hearing.
    And, of course we have with us today the co-chairmen of the 
Salton Sea Task Force, Mr. Bono and Mr. Hunter.
    Then, as fate would have it, in addition to being 
distinguished local representatives, Mr. Lewis and Mr. Brown 
are the respective deans of the California Republican and the 
California congressional delegations.
    So you have a good group of influential people to help you 
solve this problem.
    Before we get further into the hearing, I would like to 
recognize the presence of State Senator Dave Kelley and 
Assemblyman Jim Battin, local representatives in the state 
legislature, and invite them, if they would care to step 
forward and make any comments they would wish.
    Senator Kelley.
    Mr. Kelley. Mr. Chairman, I would like to take this 
opportunity to welcome all of you here with this collective 
wisdom, and the interest that you see with all the parties out 
here in the audience today. You can see the importance of the 
issue that you're going to be discussing.
    I've been involved with the Salton Sea for quite a number 
of years, having served for a rather lengthy time in the 
legislature, and I know that you, Duncan, and the rest of you, 
George and Jerry Lewis, you've all been involved, and now Sonny 
Bono is getting involved, and now you, Mr. Doolittle, are 
getting involved in all of this, to try and come to some 
resolution to the problem.
    The problem is complex. We've known it for a number of 
years--many, many years, as a matter of fact--and we welcome 
you here today. My comments are just to welcome you, not to 
present any testimony. You have all the experts lined up out 
here.
    I'm sure, by 2 o'clock this afternoon, you'll have a 
solution to the problem and we'll be able to walk out of here 
with everything concluded, and we will be very happy with 
everything that you've done here today.
    Thank you, and I welcome you here.
    Mr. Doolittle. What a setup.
    Mr. Kelley. What a setup, that's exactly right. Thank you 
very much, and we appreciate you coming here to the desert, to 
solve this problem. Thank you.
    Mr. Doolittle. Thank you. Mr. Battin, I recognize you for 
your comments.
    Mr. Battin. Thank you very much. I would just like to echo 
my Senator's welcome to the Coachella Valley. I'm glad that we 
are having a nice day for you to come down and visit us.
    I think it is paramount that all agencies come together on 
this, whether it's local agencies or state and Federal, because 
that, I believe, is the only way that we will find a solution 
to the challenge of the Salton Sea.
    It is such a beautiful site, and it can be a mecca for 
tourism and all sorts of other recreational activities, and I 
really look forward to that day.
    I read in the paper the other day where Sonny Bono was 
talking about his days of waterskiing on that, and I would like 
to see my son be able to do that again.
    I think, with the effort by both of the Congressmen that 
represent my district--Mr. Bono and Mr. Hunter--I think that 
we're going to see great things out of this, and I applaud you, 
Mr. Chairman, for coming down, and the task force. Anything 
that we can do, I'm sure that we will definitely try.
    Again, thank you very much for coming.
    Mr. Doolittle. Thank you.

   STATEMENT OF HON. JOHN T. DOOLITTLE, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Doolittle. Our objective today is to consider some of 
the issues affecting the water quality and lake levels of the 
Salton Sea. This hearing will not be a point of final 
resolution on the issue. It would be nice. But the issue, I 
think, is bigger than that.
    However, a great deal of work has been done to evaluate the 
causes of poor water quality, as well as the periodic 
inundation and exposure of land around the Sea. More 
importantly, there have been scores of alternatives offered to 
solve these problems.
    If we are ever to find and implement the solutions, the 
time for action is upon us. Water quality is at a all-time low. 
The Sea can no longer serve as the recreation resource it once 
was, and wildlife populations continue to be affected 
adversely.
    Finding a practical and economic solution is going to be a 
great challenge. The Salton Sea, as it now exists, is an 
artificial phenomenon created in 1905 as the result of high 
water and a break in a temporary levee along the Colorado 
River.
    For a period of about 16 months, the Colorado River flowed 
into the Salton Sink, filling it to a depth of more than 80 
feet.
    After the levee break was fixed, water levels declined 
rapidly as evaporation greatly exceeded inflow. The water level 
continued to decline until the 1920's, when increased runoff 
from imported water used in the Basin began to increase the 
Sea's surface.
    Since 1905, the salinity of the Sea has also changed. At 
the time of the levee break, the salinity of the Sea was 
roughly that of the Colorado River, but the existing dry 
lakebed salts have been supplemented by the introduction of a 
continuous inflow of salt-laden water.
    Each year it receives about 4 million tons of additional 
salt. At the same time, evaporation has concentrated all of the 
salt that has been introduced since the original levee break, 
since it is the only way that water leaves the Sea. Today, the 
Sea's salinity is about 25 percent higher than ocean water.
    Land, recreational, and ecological values associated with 
the Sea have declined over the last decade due, in large part, 
to the rising salinity and surface elevation.
    Without efforts to reduce and stabilize the salinity 
levels, they will continue to rise and will have severe impacts 
on surrounding landowners, on individuals who wish to use the 
Sea for recreation, and on the existing wildlife species.
    I look forward to hearing from the witnesses who have had 
an opportunity to evaluate these problems and to consider the 
alter-

natives. I commend the members of the congressional task force 
who are helping us to find a solution.
    [The prepared statement of Hon. John T. Doolittle follows:]

Statement of Hon. John T. Doolittle, a Representative in Congress from 
                        the State of California

    Our objective today is to consider some of the issues 
affecting the water quality and lake levels at the Salton Sea. 
This hearing will not be a point of final resolution on this 
issue. However, a great deal of work has been done to evaluate 
the causes of poor water quality as well as the periodic 
inundation and exposure of land around the Sea. More 
importantly, there have been scores of alternatives offered to 
solve these problems. If we are ever to find and implement the 
solutions, the time for action is upon us. Water quality is at 
an all-time low. The Sea can no longer serve as the recreation 
resource it once was, and wildlife populations continue to be 
adversely affected.
    Finding a practical and economic solution is going to be a 
great challenge. The Salton Sea, as it now exists, is an 
artificial phenomena created in 1905 as the result of high 
water and a break in a temporary levee along the Colorado 
River. For a period of about 16 months, the Colorado River 
flowed into the Salton Sink, filling it to a depth of more than 
80 feet. After the levee break was fixed, water levels declined 
rapidly as evaporation greatly exceeded inflow. The water level 
continued to decline until the 1920's, when increased run-off 
from imported water used in the Basin began to increase the 
Sea's surface.
    Since 1905, the salinity of the Sea has also changed. At 
the time of the levee break, the salinity of the Sea was about 
that of the Colorado River, but the existing dry lakebed salts 
have been supplemented by the introduction of a continuous 
inflow of salt-laden water. Each year it receives about 4 
million tons of additional salt. At the same time, evaporation 
has concentrated all of the salt that has been introduced since 
the original levee break, since it is the only way water leaves 
the Sea. Today the Sea's salinity is about 25 percent higher 
than ocean water.
    Land, recreational, and ecological values associated with 
the Sea have declined over the last decade, due in large part 
to the rising salinity and surface elevation. Without efforts 
to reduce and stabilize the salinity levels, they will continue 
to rise and will have severe impacts on surrounding landowners, 
individuals who wish to use the Sea for recreation, and the 
existing wildlife species.
    I look forward to hearing from the witnesses who have had 
an opportunity to evaluate these problems and consider the 
alternatives. I commend the members of the Congressional task 
force who are helping us find a solution.

    Mr. Doolittle. I would like now to turn to my colleagues. 
We don't really have a ranking minority member of this 
Subcommittee, because none is in attendance, but I'm going to 
recognize the dean of the California congressional Democratic 
delegation, Mr. Brown, for his comments.
    Mr. Brown. Thank you very much, Mr. Chairman. I do not wish 
to make an opening statement, but I will add my own thanks to 
the others that you have heard for coming down here.
    This may be a crucial development in moving us toward a 
solution of the problems of the Salton Sea, the recognition 
that there is a high level of congressional interest, including 
interest on the Resources Committee, which I think probably has 
the primary jurisdiction over this situation.
    So I am very grateful to you and, while I hate being in the 
Minority, working with a group of Republicans, it's been a very 
rewarding experience for me, and I'm beginning to like it.
    [Laughter.]
    Mr. Doolittle. Thank you. Mr. Lewis, our dean of the 
California congressional Republican delegation, I recognize you 
for any comments you may wish to make.
    Mr. Lewis. Thank you very much, Chairman Doolittle. I'd 
just like to express my appreciation to the representatives 
from Riverside County, Sonny Bono and Ken Calvert, for their 
very active involvement in this task force on the Salton Sea 
and inviting us here to the valley.
    Further, the other portion of the Salton Sea, represented 
by Imperial County, Duncan Hunter, to say the least, has been 
banging us over the head to see where we can find every dollar 
possible, over a length of time.
    George and I are somewhat outriders here. Our district is 
largely in San Bernardino County. Some years ago, I had the 
privilege of representing this area. For many, many years, 
George and I have been talking about the Salton Sea.
    I, too, believe that this could be a turning point. Indeed, 
it takes a little bit of money to bring all the stakeholders 
together, to see some serious commitment on the part of the 
state and the Federal Government, the local water agencies, et 
cetera.
    If we can take the time to take a step back, recognize that 
there's been a lot of years involved in taking us to today, and 
where we are, if we are willing to refocus, take a broad view 
of the potential of this asset, indeed, we can revolutionize 
the Salton Sea and return it to every bit of that which we have 
hoped for in the past, maybe a lot more than we've hoped for.
    So I'm very privileged to be involved. John, I appreciate 
your bringing your Subcommittee here, and all the members who 
are participating.
    Mr. Doolittle. Thank you very much. Mr. Bono, you are 
recognized for your comments.
    Mr. Bono. Thank you, Mr. Chairman. I just want to say that 
this is a dream come true for me, and unexpected, as far as 
moving in this direction so fast.
    Dealing with bureaucracies, things don't move this fast, 
but we have a task force that all were very interested in 
achieving a goal, and it was like magic. We all got together 
and we all got to work, and it's just rolling along.
    For me, being in this area, it's the first time I've seen 
this kind of energy go into a project that is dearly needed to 
prevent an environmental disaster.
    To have this kind of energy, this kind of momentum, not 
only by the task force, but by the communities and by everybody 
involved, and now the state and the representatives from the 
state, is thrilling.
    Getting this far and seeing this come to fruition, I 
somehow feel certain that we will bring the whole thing to a 
goal that we all see easily, a vision that I'm sure we all see 
and understand. It can be so exciting, not just from an 
environmental standpoint, but from a productive standpoint for 
the economy of the entire area.
    So it's very exciting. I'm thrilled. I can't thank my 
colleagues enough because, without them, this wouldn't have 
happened, and we all got together and they all championed this 
issue and then moved it to the point.
    Jerry worked very hard to get us the funds appropriated, 
that are appropriated to this date, and that's a tremendous 
boon for encouraging people that we can go further, and now we 
see we can go further. So I want to thank my colleagues for 
moving.
    George probably knows the Salton Sea better than anybody 
here. He knows every single thing about it. I was delighted, 
when I started talking to him, to know the depth of information 
that he has on it. He has researched it and researched it, so 
if we had a question, he could answer it. His contribution has 
been just fabulous.
    I'm sorry that we had to make you a surrogate Republican.
    [Laughter.]
    Mr. Bono. But you do a good job.
    [Laughter.]
    Mr. Bono. I mean, maybe you should think about--no, no, no.
    [Laughter.]
    Mr. Bono. Anyway, it's great. And our intention is to not 
just stop here, but to take it all the way home, and we're 
going to do that. Just keep your energy up with ours, so that 
we have this kind of momentum, and just let it grow. Your 
contribution is very important.
    Again, Duncan Hunter, thank you. I first went to Duncan 
with this and said, ``Let's go.'' And this is what's happened. 
So we have a great coalition and a great task force.
    Mr. Chairman, I thank you for getting involved, and I 
appreciate it deeply.
    Mr. Doolittle. Thank you very much. Mr. Calvert, you are 
recognized.

  STATEMENT OF HON. KEN CALVERT, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Calvert. Thank you, Mr. Chairman, for having this 
hearing. I, like the rest of us, most of us here, have fond 
memories of the Sea. I also went waterskiing down there 30 
years ago, and spent many happy weekends with my family and 
friends. Unfortunately, many people choose not to take on 
recreational activities today.
    Some 25 years ago, I worked as an intern for former 
Congressman Vic Veysey, who is here in the audience with his 
wife, Janet, and even then we were talking about the Salton 
Sea, and here we are today.
    Today, I think we're beyond talk, to the point where we 
need to start talking about the potential solutions. And we'll 
be hearing from Vic's son today, Tom, later on, to talk about 
the impact of the Salton Sea.
    This is an issue that's extremely important to all of us in 
Southern California. Even though I don't live down here, it's 
important, because there's very few recreational activities for 
all of us, the 18 or 20 million who live in the Southern 
California Basin.
    This is an opportunity for all of us to hopefully come up 
with a solution and, somewhere down the line, we can all go 
back waterskiing in the Salton Sea.
    Mr. Doolittle. Thank you. Mr. Hunter, you are recognized.
    Mr. Hunter. Thank you, Mr. Chairman, and thanks a lot for 
being here.
    You know, I think the folks who are here are beginning to 
understand that this going to represent the best in American 
politics. Maybe you see the worst sometimes on C-Span, but this 
is a lot of people getting together to solve a problem, a very 
complex prob-

lem, and a problem that could cost some substantial dollars, 
but we need to do it.
    I want to thank George and Jerry and Sonny. You've been 
fantastic, really a leader in this program, and John Doolittle. 
John Doolittle, folks, for those who don't know him, is a real 
doer. He's a guy that gets things done. And, Ken, what a great 
friend and ally on this thing you've been.
    Folks, you may not see us doing this, because this isn't on 
the stage, it's not on the television. But we get together on 
the House floor. We say, ``OK, what are we going to do on the 
Sea, how are we going to move out, what's our meeting next 
week?''
    This is an action team, and we are going to take action. 
The statistics that we're going to be seeing shortly show the 
urgency and the exigency of this situation. We have to move out 
quickly. We're going to do that.
    Thank you, Mr. Chairman.
    Mr. Doolittle. Thank you. Let me invite our first panel of 
witnesses just to approach, and then remain standing. As is 
customary in this Subcommittee, we place all witnesses under 
oath. I would like to ask the panel to come up now, as your 
names are being distributed, and I'll administer the oath of 
office to you.
    Excuse me. I'm thinking oath of office. Oath for testimony.
    [Laughter.]
    Mr. Doolittle. Some of you may be taking the oath of office 
in the future.
    We have on our first panel Mr. Tellis Codekas, Mr. Robert 
Johnson, Mr. Michael Spear, Mr. Wayne Hardie, and Mr. Tom 
Veysey. Gentlemen, will you remain standing and raise your 
right hands? And, oh, yes, Mr. Clark Bloom is going to testify, 
as well. I had asked him to be here.
    [Witnesses sworn.]
    Mr. Doolittle. Thank you. Let the record reflect that each 
answered in the affirmative. Please be seated, gentlemen. We 
will begin with Mr. Tellis Codekas, who is chairman of the 
Salton Sea Authority.
    Let me, before you begin, Mr. Codekas, for a guide, we have 
these three lights set there in front of you--the red, yellow, 
and green.
    We would ask you to, since we have many witnesses today, 
and we do have a time certain by which the hearing must 
conclude, try to keep your comments to 5 minutes.
    The yellow light goes on at the beginning of the final 
minute. You don't have to stop in mid-sentence when the red 
light is on. It's a guide. But just be mindful, in order to 
complete the Subcommittee's business, we will need to be 
expeditious.
    For Mr. Hardie, in that he is evaluating the proposals, 
will have 10 minutes for that purpose.
    And, with that, Mr. Codekas, I'm pleased to welcome you 
here, sir.

  STATEMENT OF TELLIS CODEKAS, CHAIRMAN, SALTON SEA AUTHORITY

    Mr. Codekas. Mr. Chairman, members of the Subcommittee, and 
members of the congressional Salton Sea Task Force:
    On behalf of the Salton Sea Authority, I want to express 
our thanks that you came all the way out here to convene this 
hearing on the future of the Salton Sea.
    The Authority has been working hard on this issue, and now 
it is good to see a national interest. We welcome this 
recognition by Congress.
    There is no doubt that the Salton Sea needs to be saved, 
both for economic and environmental reasons. As a drainage 
reservoir, the Sea is crucial to the agricultural economies of 
the Imperial, Coachella, and Mexicali Valleys.
    In addition, there are extensive recreational and 
geothermal developments around the Sea that need to be 
protected from impacts of rising salinity and fluctuating 
elevations.
    From an environmental perspective, the Sea provides 
important and diverse habitat for resident and migratory 
waterfowl, marsh, and shore birds. These are magnets for 
birders, hunters, and boaters to the state and Federal refuges 
and parks.
    In my written testimony, I have provided you a history of 
the Sea and background information on the Salton Sea Authority. 
I would like to now address the substance of the Authority's 
recommendations.
    Even though this is the first congressional hearing on the 
Salton Sea, saving the sea is not a new idea. When I make 
reference to saving the Sea, I am talking about saving the 
beneficial uses of the Sea.
    The Salton Sea Authority has worked intensively over the 
past two years, in a very formal process. We have looked at 
dozens and dozens of ideas to save the Sea and we have selected 
what we believe is a feasible option.
    We have been guided all along by this set of fundamental 
principles: the project must be practical, affordable, and 
effective in lowering salinity levels.
    The No. 1 problem of the Sea, you can see on this chart 
what increasing or decreasing levels of salinity will do to the 
fishery.
    As you sit here today and hear these comments, and when you 
return to Washington to hopefully continue your work with us on 
a solution, we ask that you be guided by the same basic 
principles: practicality, affordability, and ability to reduce 
salinity.
    First things first. Any project to reduce salinity must be 
practical. You may hear varied concepts during this hearing, 
some that include high expectations, but be cautious. Aim for 
solutions that are achievable, and not out of reach.
    Even if we were to implement the perfect solution tomorrow, 
there still would be problems with the Sea for some years to 
come. It took a while for the Sea to get to its present 
condition, and it will take a while to clean it up.
    Any project to reduce salinity will be expensive. It's an 
artificial body of water, and it will take an artificial 
project costing millions of dollars to fix. The people of this 
region can't do it by themselves. I am encouraged, by the 
Committee's appearance here today, that you understand this is 
a national responsibility, as well.
    To be effective, the project must reduce the salinity of 
the Sea to approximately that of the ocean, but forget about 
turning the Sea into a freshwater lake. It will still be a 
highly productive in-

land sea which, during summer months, will occasionally have 
episodes of odors, but it nevertheless is a great resource. We 
need to reduce the salinity levels now.
    We are concerned about spending previous time taxpayers' 
money to study biological processes. We don't know exactly the 
biological mechanism of how and why the birds and fish are 
dying, but we are convinced that high salinity is the major 
problem. We need to act now.
    After studying many possibilities and alternative 
solutions, the Authority believes that constructing some type 
of diked impoundment in the Sea would best meet the guidelines 
of being effective, practical, and affordable, and will get us 
to a reduced salinity level faster than any other proposed 
solution.
    We believe the Salton Sea Authority should continue its 
leadership role to plan and build the project. We shall, of 
course, do this in collaboration and coordination with local, 
state, and Federal agencies.
    In closing, Mr. Chairman, I sincerely want to thank you and 
your colleagues here today for taking time and showing the 
interest you have in our Sea.
    I will answer any questions you or the Committee wish to 
ask. Thank you.
    [The prepared statement of Mr. Codekas may be found at end 
of hearing.]
    Mr. Doolittle. Thank you, sir. Our next witness will be Mr. 
Robert Johnson. Mr. Johnson is the regional director of the 
Lower Colorado Region of the Bureau of Reclamation. I think I 
last left you in Boulder City, Mr. Johnson. I am pleased to 
have you back here again today.

STATEMENT OF ROBERT JOHNSON, REGIONAL DIRECTOR, LOWER COLORADO 
   REGION, BUREAU OF RECLAMATION, DEPARTMENT OF THE INTERIOR

    Mr. Johnson. Thank you, Mr. Chairman. It was a pleasure to 
see you again, too.
    Mr. Chairman and members of the Subcommittee, I would like 
to thank you for the invitation to be here today. With your 
permission, I would like to summarize my remarks and have the 
full text of my prepared statement entered into the hearing 
record.
    Mr. Doolittle. So ordered.
    Mr. Johnson. The Congress, throughout the years, has 
established many study programs the Bureau of Reclamation has 
been involved in related to the Salton Sea. Our involvement 
dates back to the late 1960's and early 1970's, when we and the 
State of California jointly prepared a feasibility study and an 
environmental impact statement for a salinity management 
project on the Sea.
    In 1985, the Congress created the National Irrigation Water 
Quality Program to identify the nature and extent of 
irrigation-induced water quality problems that may exist in 
western states, including the Salton Sea.
    In 1992, Congress enacted Title XI of Public Law 102-575, 
which authorized the Bureau of Reclamation to participate in a 
research project to develop methods to reduce and control 
salinity, provide endangered species habitat, enhance 
fisheries, and protect recreational values at the Salton Sea, 
and report to Congress.
    In fiscal year 1998, the President requested $400,000 in 
the Bureau of Reclamation's budget for this purpose. 
Reclamation anticipates that the Congress will be provided a 
report later this year. We have a draft report that's currently 
undergoing public review.
    In addition to the roughly $2.6 million provided through 
the National Irrigation Water Quality Program, Congress has 
provided about $8.5 million more since fiscal year 1986 for 
Salton Sea efforts conducted by the Bureau of Reclamation, the 
U.S. Fish and Wildlife Service, and the U.S. Geological Survey.
    The Bureau of Reclamation is participating with the State 
of California and local entities, including the Salton Sea 
Authority, in an effort to address Salton Sea concerns. 
Presently, there are more than 50 separate potential solutions.
    Reclamation, however, is not recommending Federal 
participation in any specific alternative at this time. 
However, I would like to provide a brief description of some of 
the alternatives that are under consideration in our report.
    One is diked impoundments. A number of alternatives for 
diked impoundments are variations of the concept of diking off 
portions of the Salton Sea to create evaporation ponds within 
the Sea.
    These alternatives range from impounding different sizes of 
closed areas within the Salton Sea that would act as an 
evaporation pond to compartmentalizing larger portions of the 
Sea into separate zones with dikes. Some alternatives would 
create fresher water in portions of the Sea and allow other 
portions to become highly saline.
    Pump-out option is also something that's been evaluated by 
Reclamation in the study, along with the Salton Sea Authority.
    Various proposals along these lines would create an outlet 
by pumping water out of the Salton Sea. Some alternatives would 
pump the seawater to onshore evaporation ponds. Other 
alternatives would pump seawater to Laguna Salada, a dry 
lakebed north of Mexico's Gulf of California. Still others 
would pump the water to a desalting plant or even to the 
Pacific Ocean.
    Construction costs for various proposed solutions are 
estimated to range from $40 million to more than $2 billion. 
Additionally, there would be significant costs associated with 
conducting related studies, such as developing the most 
appropriate construction techniques, completing biological 
research, and performing basic geologic hazard studies.
    In conclusion, the Bureau of Reclamation has participated 
in a number of studies over the years to address Salton Sea 
problems. At the present time, Reclamation and other state, 
local, and Federal agencies are evaluating various proposed 
solutions.
    Reclamation does not have enough information to recommend a 
proposed solution or Federal participation in any of the 
proposals at this time.
    However, Deputy Secretary Garamendi has asked Reclamation 
to include a broader range of agencies and participants, 
consistent with our study authority provided under Public Law 
102-575. Our goal would be to sort through all of the various 
options and make specific recommendations at some point in the 
future.
    Thank you for the opportunity again to be here today, and I 
would be pleased to answer questions.
    [The prepared statement of Mr. Johnson may be found at end 
of hearing.]
    Mr. Doolittle. Thank you very much. Our next witness is Mr. 
Michael Spear, Regional Director of the Pacific Region, U.S. 
Fish and Wildlife Service. Mr. Spear, you are recognized.

   STATEMENT OF MICHAEL J. SPEAR, REGIONAL DIRECTOR, PACIFIC 
   REGION, U.S. FISH AND WILDLIFE SERVICE, DEPARTMENT OF THE 
                            INTERIOR

    Mr. Spear. Thank you, Mr. Chairman, members of the 
Committee.
    I am Mike Spear, West Coast Regional Director of the Fish 
and Wildlife Service. With me today, on my right, is Clark 
Bloom, Refuge Manager for the Salton Sea National Life Refuge 
Complex.
    Mr. Doolittle. You probably have to hold that microphone 
closer to your mouth.
    Mr. Spear. First, I would like to thank you all for 
allowing the Service this opportunity to address the Committee.
    I want to underline the need for continued support for the 
Salton Sea Task Force in addressing the failing Salton Sea 
ecosystem. Without your support, it would be difficult to 
address the numerous complex issues which face us as we search 
for solutions.
    Fish and Wildlife Service has been in the Salton Sea since 
1939, when the first manager assumed the job of running the 
35,000 acre Salton Sea National Wildlife Refuge located on the 
south shore of the Sea. The management emphasis in those early 
years included protecting and enhancing migratory bird habitat, 
and providing opportunities for hunting and fishing.
    We still manage for these purposes. However, today, we also 
manage for endangered species and facilitate ecotourism, which 
generates over $3 million annually, principally from 
birdwatchers.
    According to a 1988 report, Problems and Solutions at 
Salton Sea, developed for the California Resources Agency, 
early studies conducted in 1969 and 1972 found that, although 
considerable efforts and discussion have occurred to address 
the Salton Sea's problems, no effective remedial strategy had 
yet been established.
    As a result, recreational participation, land values, 
general levels of economic activity around the Sea have 
declined considerably over the past two decades. It is safe but 
sad to say that three decades have now passed since the problem 
was diagnosed, and the situation is worse.
    Since this report was prepared, the Sea's water level 
continues to rise. Its salinity still exceeds the salinity of 
the ocean. Raw sewage and industrial pollutants from Mexico 
continue to flow down to the New River and into the Salton Sea 
along with nutrients, selenium, and other chemicals from 
agricultural drain water. The Sea is officially considered as 
the ultimate sink for all drainage in the Coachella and 
Imperial Valleys.
    In 1992, national attention was focused on the troubled Sea 
when over 150,000 eared grebes and ruddy ducks died. The 
National Wildlife Health Center has determined that some of the 
ducks died from avian cholera, but the cause of most of the 
duck deaths and all of the grebe deaths remains unknown today.
    Fish and bird kills have continue to occur. An estimated 
20,000 birds died in 1994. The cause was never determined. 
Avian botulism killed over 14,000 birds in 1996, including more 
than 1,400 endangered brown pelicans.
    As a side note on the issue of the brown pelican is a good 
example of the spinoff problems that result from this. In our 
Pacific region, we have a large endangered species workload, as 
you all know. One of the things we are criticized for is not 
taking things off the list.
    We were ready to recommend, in 1996 and again this year, 
that the brown pelican be delisted. What has happened in the 
Salton Sea has, unfortunately, stopped that process of 
delisting, in other words; so a very specific impact which, of 
course, then has impacts along the coast, where it is also 
protected.
    But there is a bird that, other than what is happening 
here, would be in a position likely to be delisted.
    Thousands of tilapia, a species of fish, died of vibrio 
infections that allowed botulism to develop in their blocked 
intestines. Birds which consumed the sick fish were infected 
with the botulism and died.
    In 1997, Newcastle disease wiped out a breeding colony of 
cormorants, and the refuge staff witnessed a raft of dead fish 
three miles long.
    These losses hold great significance for the Pacific 
flyway, one of the main corridors over which migratory birds 
travel between their winter and summer homes. Since the Salton 
Sea serves as a substitute for flyway wetlands lost elsewhere 
in Southern California, its health is essential for the long-
term viability of the migratory bird population of the West 
Coast.
    Several Federal, state, and private agencies and 
contractors have been working on numerous efforts to address 
isolated problems associated with the Salton Sea. Nonetheless, 
signs of ecosystem distress still appear through fish and bird 
die-offs.
    The Service itself has made a major effort to manage these 
incidents in concert with the California Fish and Game, by 
removing dead birds, destroying infected carcasses, to prevent 
the spreading of disease and rehabilitating birds, if possible.
    Largely due to complex jurisdiction questions, no one 
entity has been in a position to take the lead to develop a 
comprehensive program to resolve the numerous problems, such as 
potential water diversions from the Sea, wildlife diseases, 
human health risks, increasing salinity, along with the related 
items, such as loss of cultural resources.
    We need a unified approach. Decisions are being made now 
which are going to affect the Sea.
    The EPA is working with Mexico to construct a second sewage 
treatment plant, something we all want but, of course, could 
lead to diminished flows into the Sea.
    The ongoing negotiations of transferring water from 
Imperial Valley Irrigation District to the city of San Diego 
could result in less water going into the Sea.
    All of these things will affect the eventual plan to 
restore the health of the Salton Sea. So the timing of this 
effort to find a solution is not too early.
    Finally, the fate of endangered species, given last year's 
significant losses, we are obliged to seek and implement an 
effective answer, not only to these drastic losses, but to 
restore the ecosystem as a whole.
    My final comment is about a report that just came off the 
press a few days ago, and I believe you all have a copy.
    Eight weeks ago we cosponsored a symposium on research 
needs in the Salton Sea with the Bureau of Reclamation and the 
Geological Survey, both Biological and Water Resources 
Division, along with California Fish and Game. The purpose was 
to say, let's bring together the best scientists and say what 
research is needed.
    Of course, facing the criticism that we're always asking 
for more research, I think you will hear from a lot of people, 
there are things we don't know.
    In 8 weeks, we got the report from the scientists. They put 
together their recommendations, and have printed the report. I 
believe that the $35 million recommended over 3 years, of 
course, is a lot of money. $12 million per year for research is 
a lot of money.
    Whether we have 3 years is a big question that I have, and 
I don't think we can necessarily say that every one of these 
studies must be done. But I think in 8 weeks we get a good 
sense of the nature of the studies and, you know, we're open 
to, obviously, lots of discussion about what should be done. 
But we can put together a program, as people look for more 
answers.
    Finally, I would have to say I would be remiss if I did not 
point out that, for right now, and for the short-term future, 
the Fish and Wildlife Service can do no more than put a bandaid 
on the problem.
    We burn dead birds and fish in an effort to stop the spread 
of disease and help in the efforts to rehabilitate sick birds. 
This is what we do. Needless to say, this leads to serious 
frustration and stress, particularly in our refuge staff.
    To fully appreciate the efforts, you must realize that 
people come to the Fish and Wildlife Service to protect and 
enhance fish and wildlife and their habitat, not to spend their 
days picking up and burning dead fish and birds.
    Clark Bloom and his staff are performing heroically under 
incredibly adverse conditions. You know what summertime 
temperatures are like around here. I want to publicly recognize 
this. But that's what we must do, for the time being, while we 
wait for the solution.
    Thank you for the opportunity to appear here today.
    [The prepared statement of Mr. Spear may be found at end of 
hearing.]
    Mr. Doolittle. Thank you very much. Let me recognize 
accompanying Mr. Spear is Mr. Clark Bloom, the refuge manager 
of the Salton Sea National Wildlife Refuge. Mr. Bloom will not 
present direct testimony, but will be available to assist Mr. 
Spear in answering specific questions pertaining to the refuge.
    With that, let me recognize our next witness, Mr. R. Wayne 
Hardie, who is the group leader of energy and environmental 
analysis for the Los Alamos National Laboratory.
    Mr. Hardie.

    STATEMENT OF R. WAYNE HARDIE, GROUP LEADER, ENERGY AND 
ENVIRONMENTAL ANALYSIS GROUP, TECHNOLOGY AND SAFETY ASSESSMENT 
            DIVISION, LOS ALAMOS NATIONAL LABORATORY

    Mr. Hardie. Thank you, Mr. Chairman.
    I work at Los Alamos National Laboratory, which is in Los 
Alamos, New Mexico, and operated for the Department of Energy 
by the University of California.
    In May of this year, the Laboratory was asked by the 
Congressional Salton Sea Task Force to provide technical 
support for the remediation of the ecological problems in the 
Salton Sea. Today, I'm going to report on some of our work in 
evaluating various concepts for remediating the Sea.
    Our results are preliminary, in some cases qualitative, but 
they can be used to help guide decisionmakers such as 
yourselves in your deliberations.
    Environmental issues related to the Salton Sea include: 
industrial and municipal waste, selenium concentrations, high 
salinity, and variable water levels. Today, I am going to 
briefly discuss each of these issues.
    The primary source of industrial and municipal waste to the 
Salton Sea is untreated sewage from Mexicali. However, although 
the amount of industrial and municipal waste discharged to the 
New River is large, plans are in the works for a Mexicali 
treatment facility which, when completed around the year 2000, 
will help alleviate this problem.
    Consequently, we feel that the issue of industrial and 
municipal waste pollution in the Salton Sea is already being 
addressed.
    Because the agricultural drain water entering the Salton 
Sea contains selenium, there is concern that this may cause 
selenium poisoning problems in the Salton Sea and may be 
contributing to the bird and fish die-offs.
    Information provided to us on measurements of selenium 
concentrations in the drain water, Sea water, and sediments in 
the Salton Sea indicate levels that are below the existing EPA 
recommendations in the case of the Salton Sea water, and are 
typically a factor of 10 or more below those experienced at the 
Kesterson National Wildlife Refuge.
    Therefore, we do not view selenium in the Salton Sea as a 
pressing problem and think that additional research on selenium 
and its impact on the environment of the Salton Sea is needed 
before any actions are undertaken.
    Also, the selenium levels in the Salton Sea and its 
sediments need to be carefully monitored so that any trends 
toward increasing selenium levels will be detected early.
    The remaining two issues, high salinity and variable water 
levels, are complicated and most solutions will impact both 
these problems to varying degrees.
    Regarding salinity, the Salton Sea Authority has set a goal 
of 35 parts per thousand, which is equal to the salt content of 
ocean water, and a decrease of about 9 parts per thousand from 
the current level. The Authority would like to stabilize the 
water level at between 230 and 235 feet below sea level, which 
is a slight decrease from today's elevation of about 227 feet 
below sea level.
    Los Alamos has examined the cost, salinity, and Sea level 
changes of three remediation concepts--desalinization; pump-in, 
pump-out; and diked impoundment--and compared these results 
with no action, or doing nothing. We have concentrated on 
performance and economic issues and have not evaluated 
ecological or institutional factors in this analysis.
    First, if no action is taken, the Salton Sea will, of 
course, continue to increase in salinity from today's level of 
44 parts per thousand. The Sea would reach a salinity level of 
about 60 parts per thousand in about 15 years. This is 
important, because some believe that most fish can no longer 
live in water around this salinity level. Therefore, there 
isn't much time if the Salton Sea is to be saved.
    If there were an inexpensive filtering or distillation 
method to remove salt from high salinity water, desalinization 
would be an obvious solution to the problems of the Salton Sea.
    The process could be used to reduce the salinity of the 
water already in the Salton Sea or to desalinate ocean water 
being pumped from the Gulf of California as part of a pump-in, 
pump-out scheme.
    If desalinization is used to freshen the water in the New, 
Alamo, and Whitewater Rivers, and the water allowed to flow 
into the Salton Sea, this reduces the quantity of salt going 
into the Sea, but does not solve the salinity problem, because 
salt is not being removed from the Sea.
    Furthermore, if the desalinated water is diverted instead 
of flowing into the Salton Sea, this will lower the Sea's 
elevation and increase its salinity, thereby making the problem 
worse.
    One desalinization proposal was developed earlier this year 
by U.S. Filter. They propose treating New and Alamo River water 
prior to entering the Salton Sea and diverting about 160 
thousand acre feet per year for recycle.
    The impact of the above proposal on the Salton Sea is an 
increase to about 120 parts per thousand in 30 years, which is 
20 parts per thousand higher than doing nothing. Furthermore, 
the surface area of the Sea would decrease by over 30 percent.
    Another proposal, by the Metropolitan Water District, would 
divert approximately 450,000 acre feet of Alamo and Whitewater 
River water. Once again, from the point of view of remediating 
the Salton Sea, this makes the Sea smaller and saltier.
    In summary, desalinization can be used to produce fresh 
water for urban use, but proposals that divert inflow water 
will make the Salton Sea salinity and elevation problems worse.
    Another concept that has received attention consists of 
pumping water from an external source to the Salton Sea and 
pumping water from the Sea to an external location. The 
advantage of such a concept is it has the potential to allow 
simultaneous control of salinity, elevation, and surface area.
    The obvious source for pump-in water is the Gulf of 
California, which, of course, is at ocean water salinity. 
However, for this concept to be practical, the salinity of the 
pump-in water needs to be considerably less than that of ocean 
water in order for the Salton Sea to eventually reach ocean 
water salinity.
    If the pump-in water is at ocean water salinity, very large 
quantities of water must be pumped both in and out.
    For example, pumping in 400,000 acre feet per year of ocean 
water and pumping out 500,000 acre feet of Salton Sea water is 
required for the Salton Sea to approach ocean water salinity. 
That is a lot of water.
    Since it is unlikely there will be a source of low-salinity 
pump-in water, a variation of this concept is pump-out only. 
Pumping out a relatively small 150 thousand acre feet per year 
of Salton Sea water will allow the Salton Sea to reach ocean 
salinity. This would create a smaller Salton Sea by about 35 
percent, in terms of area.
    Our estimate of the capital cost for this system is about 
$300 million, with operating costs being approximately $5 
million per year. Therefore, pump-out achieves nearly the same 
results as pump-in, pump-out, and at a much lower cost.
    Providing that a smaller Salton Sea is acceptable, pump-out 
should be considered as a viable option for the Salton Sea. One 
important issue that needs to be resolved with this concept is 
the destination of the pumped water. One frequently mentioned 
area is the Laguna Salada in Mexico. Technically, this is 
feasible, but would entail reaching an agreement with Mexico.
    Another concept that has the potential for controlling 
salinity and elevation is the creation of in-Sea impoundment 
areas by diking. This could result in a Salton Sea with the 
same elevation as now and a salinity level comparable to that 
in the ocean.
    The primary disadvantage with diked impoundment is that 
part of the surface area in the Sea would be in an impoundment 
area which would contain very saline water. Fish would not be 
able to survive in the impoundment and, in time, this brine 
would precipitate salt.
    Eventually, this salt would have to be removed from the 
impoundment area--the cheapest way probably being to pump out 
the brine. When this has to be done is uncertain and will 
depend on the criteria for pumping out the brine.
    A lower bound would be when the brine first reached 
saturation while the upper bound would be when the impoundment 
area fills up with solid salt.
    Using our assumptions on inflow volumes, an impoundment 
area of approximately 65 square miles, which is about 17 
percent of the area of the Salton Sea, would allow the Salton 
Sea to reach ocean salinity. Depending on the pumping 
criterion, the impoundment would be able to operate from 10 to 
75 years before the brine needs to be pumped out.
    Our estimate of the capital cost of such a system is about 
$300 million for an earthen dike and about $700 million for a 
concrete dam. Operation costs would be between $1- and $2-
million per year.
    If having part of the Salton Sea at a high salinity level 
is acceptable, we feel that diked impoundment is also a viable 
option for the Salton Sea.
    Based on our analysis, we conclude:

          First, that industrial municipal water in the Salton 
        Sea will be reduced considerably once the Mexicali 
        facility is operational around the year 2000;
          Second, there is time to address the selenium issue, 
        allowing for further research and more information to 
        be gathered;
          Third, desalinization is not a viable concept for 
        salinity and elevation control of the Salton Sea;
          Fourth, pump-out is a feasible method for salinity 
        control, but the size of the Salton Sea would decrease; 
        and
          Fifth, diked impoundment will control salinity and 
        elevation, but the impoundment area will have high 
        salinity water.
    Diked impoundment appears to be the solution that would 
best meets the salinity and elevation requirements, and at a 
similar cost to pump-out. More detailed and optimized designs 
need to be developed in order to better predict cost and 
performance. Finally, the ecological and institutional 
consequences of the various concepts need to be better analyzed 
before a final selection is made.
    Thank you.
    [The prepared statement of Mr. Hardie may be found at end 
of hearing.]
    Mr. Doolittle. Thank you. Our final witness in this panel 
will be Mr. Tom Veysey, who is testifying as an Imperial County 
farmer, but he is also a distinguished member of the Imperial 
County Board of Supervisors. Mr. Veysey.

STATEMENT OF TOM VEYSEY, REPRESENTING THE SALTON SEA AUTHORITY 
                       BOARD OF DIRECTORS

    Mr. Veysey. Thank you, Mr. Chairman. My name is Tom Veysey 
and I'm a resident of Brawley in Imperial County, where I have 
farming interests and also engage in public service as a member 
of the Salton Sea Authority and serve the voters in District 4 
on the County Board of Supervisors. District 4 encompasses all 
of Imperial County's portion of the Salton Sea.
    I wish to visit with you today as an agricultural producer. 
Agriculture is far and away the cornerstone of the Imperial 
Valley economy and its destiny is dependent on the Salton Sea 
for drainage as it is dependent on the Colorado River for 
water.
    Producers are anxious for the Salton Sea's restoration for 
reasons beyond the role of an irrigation drain water 
repository. We take pride in our participation as community 
builders who are vitally interested in the quality of life 
beyond our families and communities.
    We look on the Salton Sea as a tremendous asset, with vast 
economic opportunities for all the desert southwest and the so-
called Inland Empire. Indeed, the Sea is sick but, given its 
restoration and renewed vitality, it will be a magnet for 
enterprise facilitating recreational activities and 
environmental gratification.
    In its restored state, the Sea will be embraced by the 
Inland Empire and Southern California as a major recreational 
and environmental resource.
    In its revitalized state, the Salton Sea will partner with 
agriculture to support the region's economy in ways that will 
not undermine its infrastructure of services.
    I envision a healthy Sea as adding greatly to our tourism 
and visitor market and vastly enlarging the region's business 
opportunity base. This will provide new initiatives that should 
continue to expand qualitative employment opportunities, 
contributing to better prosperity for rural and city life.
    When it is restored, the Sea will be essentially reliant on 
agriculture for drain water inflow to help maintain its 
elevation. The development of the Sea into a healthy, thriving 
recreational mecca will bring greater understanding of its 
relationship to our region's agricultural system.
    The business of food production is fiercely competitive and 
increasingly fraught with high cost, risk, and calamity. 
Farmers have to farm smarter and manage more effectively with 
each new crop ear, in this changing world.
    It is challenging for agriculture to sustain a role into 
the new millennium as a principal job-producer and wealth-maker 
of the County.
    Our cropping patterns are now in the throes of major change 
from the traditional ones, as we seek newer crops and methods 
to sustain agriculture's economic engine. However, the 
necessity to force the salts through the soils and the 
resulting drainage will continue.
    Some of this change is due to pests and disease from such 
indomitable foes as the Silverleaf Whitefly that throttled our 
melon deal and afflicted numerous other crops. Some is due to 
market price decline in what used to be a bellwether of 
economic vitality--vegetables.
    Some of this is due to bad luck, such as occurred in our 
tremendously promising durum wheat industry that was dealt a 
crushing blow with the unjustifiable imposition of a quarantine 
following the discovery of Karnal bunt in Arizona.
    Multi-faceted industries, such as cotton, that once was a 
hubbub of activity, with its production, harvesting, ginning, 
warehousing, and shipping, long has been in decline from 
natural pests.
    Cattle production, another major leg of the County's stool 
of economic vitality, has waned significantly in need of meet 
and slaughter facilities.
    Producers are struggling to find crops they can depend on, 
that will yield a return. It might appear that we are not being 
true to our badge as conservationists and environmentalists 
when we plant crops that are more water intensive than others 
and have to use chemicals to control pests and disease, but we 
sometimes have to do what we have to for survival.
    I remember when we used to take a pause in our farming in 
August and recommence in September. Now, we don't stop. We 
really can't afford to.
    We have to make tremendous investments in plastic-lined 
rows, sprinklers, strip irrigation systems, to attain higher 
yields to offset the eternal crunch of spiraling input and 
handling costs.
    Then, when our crops reach a delicate, critical state and 
are smitten, say, with a whitefly invasion, we need to have a 
chemical to go with integrated pest management practices to 
protect the crop. We are trusting that the EPA's administration 
of the Food Quality Protection Act doesn't take away all the 
means of surviving a major pest assault and disease, unless 
there are affordable alternatives; and many of these appear to 
be along way from reality.
    Little wonder the producers are interested in water 
transfer. When such transfer occurs, it will provide some very 
necessary funds to producers that can be used to modernize and 
equip themselves to deal with a turbulent business environment, 
so they can stay in business.
    Even when we are able to retool and fully refuel 
agriculture's economic engine in Imperial Valley, we will 
continue to need state and Federal resource support to help us 
find better production practices, embracing both conservation 
and environmental needs, as well as a method to deal with pests 
and disease.
    The Whitefly Management Committee of Imperial County is 
spearheading a unique and applaudable association of county, 
state, university, and Federal resources which might be able to 
get that dreaded pest under control. Continued research on such 
problems will be necessary.
    Additional creative planning, both within our County and in 
the surrounding counties, together with the state and Federal 
resources, might help us attract a cattle processing facility 
to this region.
    As a producer and general citizen, I applaud your united 
interest as legislators in seeking serious, meaningful funding 
for the restoration of the Salton Sea, as well as the New 
River. All my life I have been associated with the Salton Sea. 
It's like an old friend who you never want to see in a state of 
decline.
    As a youngster, I enjoyed many recreational activities 
there. I got to know it extremely well one night when I took it 
for granted during an outing of fishing and waterskiing, 
becoming incapacitated and having to spend the night in the 
center of the Sea, and subject to many search parties. Two 
others that night weren't as fortunate, and they lost their 
lives. Needless to say, I have a lot of respect for the Sea. It 
has pained me to witness the decline of the Sea, and nothing 
would please me more than to be a part of its restoration.
    This is why I am, at this moment, working with the U.S. 
Corps of Engineers in supporting Congressman Hunter's citizens' 
task force on the New River, headed by Leon Lesica, involving 
our residents and communities in a New River cleanup project 
that will contribute importantly to the restoration of the 
Salton Sea.
    It's a simplified but exciting concept of building holding 
ponds which would allow the water to rest and purify and then 
be released into the Sea as it is needed to maintain the 
critical elevation posture.
    Further, I am supporting the concept of diked impoundment 
as the preferred approach to the restoring of the Sea. Salinity 
is clearly the most paramount problem associated with the 
restoration.
    Diking appears to me to offer the best buy for the dollar 
in dealing with the heavy salt load of the Sea and its critical 
water level. The diked impoundment concept, coupled with the 
management of cleaner inflows from the New River, Alamo River, 
Whitewater, and other sources seems to me to be wise, doable 
choices.
    The concept also offers future opportunities to include 
other solutions which require longer timelines for 
implementation and effectiveness.
    I'm glad that the Salton Sea Authority scores agriculture 
highest in its evaluation of criteria associated with the 
restoration project. In as much as Imperial County has the 
highest unemployment rate in California, the $1 billion 
industry of agriculture must be preserved and enhanced.
    We accept this challenge to change our future by working 
with you to improve this major resource and allow Southern 
California to further diversify by benefiting from the 
resources we enjoy.
    I have endeavored to outline for you some of my beliefs as 
a farmer why agriculture vitally needs the Salton Sea and why 
the Sea cannot do without agriculture. Thank you.
    [The prepared statement of Mr. Veysey may be found at end 
of hearing.]
    Mr. Doolittle. Thank you very much. There will be now the 
opportunity for Members to pose questions to the panel.
    Given the size of the panel and the number of Members we 
have, we should use these lights for ourselves, and try and 
stay within the 5 minutes, as well.
    Let me just ask whichever one of you would care to answer, 
of the two problems, the rising salinity and the raw sewage 
coming in from the New River, which of the two is greater, and 
how much greater is it, in terms of greater threat to the fish 
and wildlife and the overall health of the Sea?
    Mr. Codekas. I would like to speak to that.
    Mr. Doolittle. OK. Why don't you take the microphone?
    Mr. Codekas. I think the salinity is a far greater problem 
than the New River, and you can cure the New River, but that's 
not going to solve the salinity problem, and that's the problem 
with the Salton Sea, as we see it on the Authority.
    Mr. Doolittle. OK. Do you agree with that, Mr. Spear?
    Mr. Spear. Basically, I would agree. I would add something 
about the New River. We are torn about the New River from the 
point of view of, clearly, we want it to be cleaned up, but I 
think we want to make sure that water keeps flowing to the Sea, 
too.
    I mean, we have this great water balance problem with 
quantity and quality, and so we want to see the New River 
cleaned up, but overall, I'd like to see--you know, the 
salinity problem is, I think, undoubtedly the greater problem. 
If it keeps going, it really doesn't matter.
    Mr. Doolittle. Is it primarily the salinity that's 
threatening the fish and wildlife?
    Mr. Spear. It's a combination. You know, when you have the 
higher salinity, every year gets higher, it increases the 
stress, we're at the upper limits of the species' capabilities 
to survive. It takes less and less of a problem to cause some 
of the disease outbreaks.
    But, obviously, some of the other contaminants are the 
things that may start the outbreak. So it's a combination of 
things. But every year, the salinity gets higher, they're 
closer to the edge, and these things are going to occur easier 
and easier.
    Mr. Doolittle. We don't have a representative of the State 
Department here, but perhaps one of you will share your 
knowledge with us on this.
    I understand the United States has agreed to build a sewage 
treatment facility for Mexico to deal with the New River, and 
I'm wondering what we got out of the deal.
    Can anyone comment on that?
    Mr. Hunter. Mr. Chairman, I could comment.
    Mr. Doolittle. All right. Mr. Hardie, do you want to shed 
any light on that?
    Mr. Hardie. Just a little. What we get out of it is cleaner 
water.
    Mr. Doolittle. OK, now, that's what I assumed. But then 
apparently, is it not clear that we continue to receive the 
flow of clean water?
    Mr. Hardie. I think that is a little misunderstood. The 
amount of water--I don't have the exact numbers in front of me. 
I've got them back in my office. But the amount of water that 
actually flows from Mexicali is not that large, in terms of the 
Salton Sea. The New River is large. But that gets reinforced by 
all the drainage.
    And so the actual, if Mexicali decided to redirect the 
water, I think is like 5 percent of the total.
    Mr. Doolittle. Five percent of the annual flow into the 
Salton Sea comes from the New River, then?
    Mr. Hardie. Roughly. I don't know offhand. It comes from 
Mexicali.
    Mr. Doolittle. Oh, comes from Mexicali.
    Mr. Hardie. From Mexicali, right.
    Mr. Doolittle. But is it clear in our treaty with Mexico, 
the negotiations that produced this plan, that they cannot then 
take that cleaned-up water and divert it?
    Mr. Hunter. John, I can do this real quick, here.
    Mr. Doolittle. All right.
    Mr. Hunter. We're going to pay about half the money for the 
cleanup, the big joint project--it's a joint project--in 
Mexicali. The reason for that, the justification for that is 
that we are asking Mexico to clean up their sewage, that is, to 
wean their sewage system from the New River.
    The New River is mostly made up of flow from the drainage, 
from the big irrigation developments in the Mexicali Valley. 
It's all the farm waters.
    But the toxic wastes coming in from the chemical plants and 
the raw sewage coming in from their sewage system, which is 
constantly broken, adds that dimension of toxic and sewage 
waste that ultimately gets to the sea.
    So what we're doing is, we're spending about half the 
money, they're going to spend about half the money, and we're 
going to hopefully wean their sewage system from the Sea--from 
the New River.
    They still have the right--and they've said that they want 
to do this at some point--to cutoff their flow of New River, 
that is, the sewage effluent, at some point, to recycle it in 
the same say that people are talking about recycling New River 
and Alamo River on this side.
    So we can't guarantee that we're going to have the largest 
part of the flow of New River coming across that border from 
where the sun now stands. It could cutoff at some point.
    Mr. Doolittle. Thank you. We saw in the chart the 
comparison between the Salton Sea and the ocean and the lake.
    Where does the Great Salt Lake fall on that chart, anyway? 
I'm just curious.
    Mr. Hardie. It's about, I believe, 280 parts per thousand.
    Mr. Doolittle. OK. Dramatically higher than anything you've 
shown on the chart.
    Mr. Hardie. And the Dead Sea is about the same at its 
surface, and it varies a lot. But it's as high as 325 parts per 
thousand, roughly, at the bottom of the Dead Sea.
    Mr. Doolittle. Thank you. Mr. Brown, you're recognized for 
your questions.
    Mr. Brown. Mr. Codekas, the Salton Sea Authority has been 
referenced as having some responsibility for relationships with 
Mexico. It's not clear exactly what. But that's true, isn't it?
    Mr. Codekas. No.
    Mr. Brown. No?
    Mr. Codekas. It is not true. We have no connection, tieup 
with Mexico at all.
    Mr. Brown. So any assertion that that's included as part of 
your responsibilities, which I saw in one of these papers, is 
not correct?
    Mr. Codekas. That's correct. We are completely divorced 
from that.
    Mr. Brown. Now, the reason I raised the question is because 
it's been mentioned by several people that we need 
consultations with Mexico if we're going to dump water into 
Laguna Salada; and you haven't had any such discussions?
    Mr. Codekas. No, but we figure that has to be done.
    Mr. Brown. Yes. And has the Bureau of Reclamation has any 
such discussions?
    Mr. Codekas. No, we haven't.
    Mr. Brown. Did you have such discussions when you ran the 
Brine Line from Yuma down to the Sea of Cortez?
    Mr. Codekas. Yes, absolutely, yes.
    Mr. Brown. And you got Mexican permission to do that?
    Mr. Codekas. Yes, we did.
    Mr. Brown. Do you see it as insurmountable that you would 
get it to run another Bring Line down to a dry lake?
    Mr. Codekas. I don't know that I would say insurmountable. 
I think there would be some issues probably that Mexico might 
have. The quality of water from the Salton Sea would certainly 
be a lot higher than the quality of water that we were running 
down because of the salinity issues.
    The drainage water that we take down to Mexico now is about 
3,000 parts per million.
    Mr. Brown. Same as the drainage water in Imperial Valley?
    Mr. Codekas. Right, about the same.
    Mr. Brown. And it's like it, because it's created a very 
beneficial salt marsh down there?
    Mr. Codekas. That's true, right. But Salton Sea water is 
44,000 parts per million.
    Mr. Brown. I understand, but it would not be draining into 
the sea, it would go into what is already a dry lakebed?
    Mr. Codekas. That's correct, yes. I don't know what 
Mexico--I certainly wouldn't say it's insurmountable.
    Mr. Brown. Would your agency be the proper agency to 
consult with Mexico about the feasibility of doing that?
    Mr. Codekas. I would think that the International Boundary 
and Water Commission, which is an arm of the State Department--
--
    Mr. Brown. This isn't part of this problem, as I think one 
of the Fish and Wildlife people indicated, of complex 
jurisdictional situations which preclude any action, is it?
    Mr. Codekas. I wouldn't say that it precludes action, no. I 
would think that you would have to involve the State 
Department, through the International Boundary and Water 
Commission, to have discussions with Mexico on that subject, 
though.
    Mr. Brown. Did you involve them when you negotiated the 
Brine Line from Yuma?
    Mr. Codekas. Yes.
    Mr. Brown. OK. That sounds like a reasonable solution, 
then.
    Mr. Chairman, do you want to entertain a comment from Mr. 
Pena?
    Mr. Doolittle. If you will come forward and take the oath, 
we will have you testify, with your answer. Please be brief, 
though.
    [Witness sworn.]
    Mr. Doolittle. Thank you. Will you identify yourself and 
your position, please?

STATEMENT OF CARLOS PENA, PROJECT MANAGER, MEXICALI WASTEWATER 
    PROJECT, U.S. SECTION, INTERNATIONAL BOUNDARY AND WATER 
                           COMMISSION

    Mr. Pena. Thank you. I'm Carlos Pena, with the U.S. Section 
of the International Boundary and Water Commission, and I'm 
currently the project manager on the Mexicali Wastewater 
Project, so I can maybe answer some questions on that.
    Mr. Doolittle. OK. Mr. Brown, do you want to direct your 
question to him?
    Mr. Brown. The question that arose here has to do with 
whether there have been any discussions between the U.S. and 
the Mexican side about the possibility of pumping out Salton 
Sea water into the Laguna Salada. Can you answer that?
    Mr. Pena. As far as I know, there haven't been any 
discussions yet.
    Mr. Brown. Would the Mexican side entertain discussions 
about that?
    Mr. Pena. I'm sure they would be interested in hearing our 
proposals. I couldn't really say what Mexico would respond to.
    Mr. Brown. No. And you wouldn't care to comment which of 
these multiple agencies on the U.S. side should entertain these 
negotiations, would you?
    Mr. Pena. Well, any discussions, we would probably be 
involved in. Is that what your question is, which agency----
    Mr. Brown. I understand that the Bureau of Reclamation 
negotiated the previous Brine Line. Would that be the 
appropriate agency, from your standpoint?
    Mr. Pena. That would probably be one of them.
    Mr. Brown. Now, with regard to the Mexicali sewage plant, 
can you give us a very, very quick, in light of the time, 
update as to the progress and anticipated date in which it will 
become operational, and if you have any plans to keep the clean 
water on the Mexican side?
    Mr. Pena. Right now, in fact, there's going to be a public 
meeting this afternoon in El Centro regarding that. The project 
has been forwarded to the Border Environmental Cooperation 
Commission for certification, and that is scheduled for 
December.
    And once the December certification occurs, the money could 
be released through international agencies for----
    Mr. Brown. The NAD Bank?
    Mr. Pena. The NAD Bank. So the construction is anywhere 
from 18 to 24 months, like you mentioned earlier, so that is 
still on schedule.
    Mr. Brown. Assuming approval early next year, you could 
have it done by the middle of 1999?
    Mr. Pena. Eighteen to 24 months is the construction time 
period.
    Mr. Brown. Thank you very much.
    Mr. Pena. Thank you.
    Mr. Doolittle. Mr. Lewis, you are recognized.
    Mr. Lewis. Thank you very much, Mr. Chairman. Mr. Chairman, 
it occurs to me that, when you look at the history of the 
Salton Sea, and those discussions involving concern about the 
Sea, we have, in the past, appropriated a good deal of money 
and spent some of the money relative to studying, and there's 
been study and restudy of this problem.
    I'm very interested in beginning to try to get a handle on 
where we go from here. The Congress is about to appropriate 
almost as much as $7.5 million themselves. There are monies 
that Dave Kelley mentioned to me earlier that involve state 
dollars and approval, $2.5 million, that involve some matching 
provides. That provides sort of a platform for a new beginning 
here.
    We tend to be--I tend to be--a local government guy. I'd 
like to get your impression, or give us your input regarding 
who the stakeholders would be in moving forward with a new 
solution, who would they look to as the appropriate body to 
coordinate all this, what kinds of requirements would such a 
body have, in relatively short order.
    Mr. Codekas. If this were given, in some manner, through 
the Authority, the Authority represents all the local level 
that are stakeholders in this proposition.
    I think what we would like to do is begin, if we're going 
to go on the impoundment, is to start engineering cost studies 
to see where we're going and what this will all cost and the 
size of the dikes and the number of years to clean up the 
Salton Sea, and keep it at the continuing level it is today.
    Mr. Lewis. Mr. Codekas, you suggested that--early on, you 
cautioned us that we should look to solutions that are 
practicable, that can be accomplished.
    Yet it strikes me that the Salton Sea Authority has kind of 
come to a conclusion that diking is that practical line but, on 
the other hand, there are some who feel--we heard testimony 
that suggested that perhaps pumping in and pumping out might 
very well provide a broader and maybe a more ideal solution.
    Mr. Codekas. I just feel, when you're pumping water that's 
10 percent or 20 percent lower than what's in the Sea, you're 
going to pump out the whole sea to change the status of the 
salinity. There's not enough differential in that water.
    Mr. Lewis. Unless you brought water in from the Sea of 
Cortez, for example, or some other source.
    Mr. Codekas. I believe you're going to be in the same 
position.
    Mr. Lewis. Others? Any other comment regarding that? Mr. 
Spear?
    Mr. Johnson. I think the question you started with was more 
of the institutional arrangement, and we got into the diking 
question.
    I'd make a comment on something else I'm involved in, which 
I think is an effective institutional arrangement, and maybe it 
ought to be looked at here.
    Some of you are undoubtedly familiar with the Bay Delta 
process, what's going on up north.
    Mr. Lewis. I'm very interested in it.
    Mr. Johnson. It's a Federal-state process with a very large 
stakeholder involvement type activity.
    I believe to the extent that what we're looking at is a 
solution that is much larger than local, people talking about 
bringing in Federal dollars and state dollars, as well as local 
contribution, I think we ought to consider some sort of 
structure which brings all of the sort of local policy members 
from those institutions--Federal, state, local--sitting down at 
a body with some charge from the Congress and the 
administration about timing, about funding, a set of rules, so 
to speak, and then, you know, take our state of knowledge, 
decide whether, how much more research needs to be done, if 
any, how much, and then also begin to propose the kind of 
solution.
    And, frankly, I expect, the way these things go, in the 
end, Congress, if they are going to come up with a lot of 
money, is going to ask a lot of tough questions.
    Mr. Lewis. It strikes me, Mr. Chairman, that this is a line 
that the Committee could very well pursue.
    That is, there are farmers' interests that are local 
stakeholders; there is water district interest, water users; 
that the asset itself is every bit as interesting and perhaps 
as important as Bay Delta, and that's a model that, indeed, has 
given us a good deal of experience here, and might very well 
broaden the base of financial support, and look to the state 
for major resources, as well as water users as resource, and 
the Federal Government, as well.
    Any other comment.
    Mr. Codekas. I would just like to say, in my oral 
testimony, I stated we work in cooperation and in conjunction 
with state, county, and feds, in any operation.
    Mr. Lewis. Mr. Veysey?
    Mr. Veysey. Yes. I can just give you a little local spin on 
this.
    As you know, this has been studied for many years, and 
studies have been studied. And, when this came up with this 
pump-in, pump-out system and it was brought up $1 billion might 
be the cost of it, that scared a lot of the local residents 
around the Sea, saying that this will be studied and then, all 
of a sudden, come up to say, ``Well, we can't afford $1 billion 
to finish this project.''
    This is why I think diking is very important. It's maybe a 
little more feasible, and it's proven it does work.
    Mr. Lewis. Thank you, Mr. Chairman.
    Mr. Doolittle. Thank you. Mr. Bono, you are recognized.
    Mr. Bono. Thank you. Mr. Spear and Mr. Johnson, there's 
talk again about studies. And being as active as this Committee 
has been in getting reports on studies, is there much more that 
we can study?
    It seems like we have covered this thing to the Nth degree, 
and I personally can't see where we could study much more.
    My concern is that we're on a clock now, as you mentioned, 
and probably, if we started yesterday, it wouldn't be soon 
enough. So I'm concerned about duplication in studies, or 
bureaucracy in studies, and the length of time it takes for a 
bureaucracy to study.
    If you would respond?
    Mr. Johnson. I think that there are still some issues that 
haven't been answered. I think Mr. Spear referred to the fact 
that we still don't know what's causing all the die-offs; and I 
don't know that you can ever get an answer to that question or 
that we should necessarily wait until we have that answer.
    But I think that plays in, to some extent, as to where you 
go with an option. For instance, the diking alternative will 
leave a significant portion of water that's going to continue 
to be highly saline.
    Mr. Bono. Right.
    Mr. Johnson. And if that's one of the causes of the die-
offs, there's no way to keep birds from landing in an area 
that's good water versus bad water.
    So I think that there are some issue there around the 
diking alternative that need to be addressed, in some way.
    Mr. Bono. Yeah, that's the solution portion of the studies, 
and I think that's very valid. The question is, do you think 
there's any more studying we can do to find out about the 
problem?
    I know we specifically haven't got an answer on what is 
exactly wrong, but it's very logical that all that pollution, 
all the salt, and all of those things accumulated would cause 
the results that we have right now, and that the cleanup of 
that would certainly be a big contributor to getting rid of 
those things.
    Mr. Spear?
    Mr. Spear. Yes, Mr. Bono. I think this is the dilemma, even 
in my own mind, that I bring to you here, a question of timing, 
that as time clicks off, the salinity gets higher and our 
problem gets worse.
    But I also bring to you some suggestion of scientists about 
studies. And we even pressed them to say, ``Anything you 
recommend has got to be done in 3 years.'' That was an 
artificial time which seemed short to them and now seems long 
in talking about this problem.
    I guess I'd make a general comment. That is, I feel pretty 
confident in saying that there's been a lot more understanding 
of the physical aspects of what will happen if you produce this 
much water at this salinity, and what will change over time, 
and a real understanding of the biological, ecological systems, 
and I would say a related human health issue of what may happen 
if we don't look at some things further.
    Mr. Bono. Let me ask you a practical question. If a study 
has to be done in 3 years, that could be 5 years. That gets you 
at about 10 years of life left, and does that leave you the 
time to do something constructive to turn that around, and a 
solution? Couldn't we run out of time by then, by not moving 
sooner? I question whether we have 5 years to study.
    Mr. Spear. I question it, too. And I wonder whether we 
shouldn't say maybe 3 years is even too long.
    Somebody says to me and the scientists and the other folks, 
saying, ``We'll give you a year-and-a-half,'' and then get some 
folks very quickly, from the National Academy, or whatever body 
you want, Los Alamos or other others, and say ``Judge these,'' 
and say ``All right, what are the key things you have to do in 
a year-and-a-half?''
    I think we would be making some mistakes if we didn't look 
at a couple of the key points here. I am not the person to 
judge exactly which ones are the best, but I think there's some 
time we should take, but not very long.
    Mr. Johnson. I would echo that. I don't think that we ought 
to take a whole lot more time to study this, either. I think a 
lot of the stuff can go on on a parallel track, addressing some 
engineering issue with other.
    Mr. Bono. That would be great. Thank you. Let me just ask 
Mr. Hardie one question.
    With the treatment plant in Mexico, it's going to cause 
some clean water to come in from Mexico, but we're going to 
pick up more polluted water from the runoff here, going into 
the New River, and then into the Salton Sea; is that correct?
    Mr. Hardie. I don't understand which polluted water you're 
talking about.
    Mr. Bono. The cleanup from Mexico is 5 percent of the--5 or 
10--coming in from the New River.
    Mr. Hardie. Right.
    Mr. Bono. So there's an additional amount that has to be 
cleaned up. I guess my point is, wouldn't part of the solution 
be to clean the water before it runs off into the Salton Sea?
    Mr. Hardie. Desalinization?
    Mr. Bono. Not necessarily, not necessarily desal, but to 
treat the water----
    Mr. Hardie. Of industrial and municipal wastes?
    Mr. Bono. Yes.
    Mr. Hardie. Well, I agree, but most of that will be 
treated. The source of most of that is Mexicali.
    Mr. Bono. Don't we pick up a lot of that from our own 
runoff here, the pollution, from agriculture runoff?
    Mr. Hardie. Agriculture wastes, yes.
    Mr. Bono. Yes. So you're treating the water, and then the 
agriculture runoff comes in, that's a big contribution to the 
New River; is that correct?
    Mr. Hardie. We did not look at that because we didn't have 
time. So I can't answer that question.
    Mr. Bono. OK. It seems logical that if we clean it at that 
point, and then it gets polluted and dirty again, that to spend 
all that money cleaning it, maybe we should look at done 
something closer to the Salton Sea, rather than----
    Mr. Hardie. I agree. It's always easier to clean something 
up before it gets into----
    Mr. Veysey. That's what we were talking about in ponds and 
purifying water before it goes into the Sea. I can also add 
that the New River and the Alamo River have been tested where 
they've gone into the Sea, and they test approximately the 
same.
    So, in the process of coming to the Sea, it's dropping out 
into our community, the raw sewage and the other industrial 
wastes.
    Mr. Bono. Thank you. Thank you, Mr. Chairman.
    Mr. Doolittle. Thank you. Mr. Calvert is recognized.
    Mr. Calvert. Thank you, Mr. Chairman. The discussion has 
been about several potential solutions, and I would like to ask 
a couple of questions in that regard.
    Mr. Hardie, you mentioned just a pump-out theory, rather 
than pumping in, and that there's obvious problems in cost in 
that, pumping water back into the Salton Sea.
    It is possible to pump water out without diking the Salton 
Sea, which may cause other problems, unintended consequences, 
and have evaporation pools separate from the Salton Sea within 
the United States, without having to pump long distances?
    Mr. Hardie. Yes, you certainly could do that. The impact on 
the Salton Sea would be the same as if you pumped it to Laguna 
Salada in terms of the reduction in size, which would be a 
reduction in surface area of about 35 percent.
    Mr. Calvert. Then the problem would be the amount of water 
that comes into the sea, whether or not there's any flushing 
action.
    The question I have, under the treaty obligations we have 
with Mexico--and I'll ask this of anyone--the number of acre 
feet of water that we must deliver across the border into 
Mexico for their beneficial use, in good years, when that's in 
excess, is it possible to divert that water through the All 
American Canal and put that water into the Salton Sea for a 
period of time in order to help offset some of that?
    Mr. Hardie. Well, I sure wouldn't count on it. We would 
have to talk to the Salton Sea people.
    Mr. Calvert. We have years, obviously we have years, where 
we have water that we can't use and it goes out to the sea. Is 
it possible, in those years, to divert that water and put it 
into the Salton Sea?
    Mr. Codekas. We're in a flood condition at all times in the 
Salton Sea. We have bad rains. We have these hurricanes, and we 
flood property, and the water just----
    Mr. Calvert. The question was, though, in concert with a 
pump-out theory, if we pump water out of the Salton Sea, 
nearby, if we put it into evaporation pools which, by 
definition, would shrink the size of the Salton Sea, then we 
would need to get water to come in in order to maintain some 
type of elevation stability.
    Is it possible to take water from the Colorado River in 
years of excess and allow that water to go into the sea to 
allow for that differential?
    Mr. Codekas. Yes, I guess you could do that, but what years 
do you know you're going to be in surplus on the Colorado 
River?
    Mr. Calvert. I just bring that up as a potential solution. 
Yes, Mr. Johnson.
    Mr. Johnson. That could occur intermittently. There would 
be years when you have lots of flow on the Colorado River, more 
than we can possibly store, and you can divert it and move it 
into the sea.
    Over time, it's expected that that will decline and there 
will become less and less available, but there could be some 
available, yes.
    Mr. Calvert. Any other comment on that?
    [No response.]
    Mr. Calvert. Another question, different subject. On the 
fish kill and the bird kill in the Sea, I suspect you chart 
that somewhat to the degree and numbers of the fish and birds 
that are dying off from year to year.
    Do you see a potential for something that could happen 
dramatic within the next several years, if nothing is done 
relatively soon?
    Mr Bloom. Yes, Mr. Chairman. I think that if nothing is 
done, you will see an increase, especially in fish mortalities. 
Fish kills, over the past 5 years that I have been present 
there as the manager, have increased probably tenfold.
    When I first came, a fish kill once a month was considered 
common. Now, a fish kill every three days is probably 
considered a common thing.
    As far as the bird die-offs go, they generally follow fish 
kills. In other words, a fish kill is usually an indicator that 
you're going to have an increase in your bird deaths.
    So it's logical to assume, then, if you have an increase in 
fish kills, you're going to also have an increase in bird die-
offs.
    Mr. Calvert. Mr. Chairman, one question I would like to get 
answered, and it doesn't have to be answered at this hearing, 
but if there's any data that shows the amount of water that 
crosses into Mexico that exceeds our treaty obligation with 
Mexico, and what the constancy of that is, if any, is a 
potential way of diverting water into the Salton Sea.
    Mr. Doolittle. Why don't you ask Mr. Johnson here?
    Mr. Johnson. It occurred in--from 1983 to 1988, we had some 
excess flows on the Colorado River system, and we're in full 
conditions on the Colorado River system, and it's occurring 
right now.
    Mr. Doolittle. How many acre feet a day is crossing the 
border in excess of our obligation to Mexico?
    Mr. Johnson. I think our deliveries to Mexico this year are 
probably going to be, with the flood control releases, over 2 
million acre feet. The annual obligation is 1.5 million acre 
feet. So we've probably released 500,000 acre feet over the 
treaty requirement this year.
    Mr. Calvert. So if we had 500,000 acre feet of Colorado 
River water, theoretically, going into the Salton Sea, if, in 
fact, we were able to have a pump-out, that's a significant 
amount of water?
    Mr. Johnson. It is, if you can get it through--I mean, 
you've got capacity issues on the All American Canal, and those 
sorts of things. But, yes, periodically, there could be water 
like that that might be available, yes.
    Mr. Calvert. Thank you, Mr. Chairman.
    Mr. Doolittle. Thank you. Mr. Hunter is recognized.
    Mr. Hunter. Well, thank you, Mr. Chairman. All my 
colleagues, and all of our members of this team have, I think, 
in their questions, elicited a response that's painted an 
excellent picture of what we face here.
    And Ken Calvert, I think, with his common sense questions, 
has sharpened it up.
    Sonny Bono is our idea guy. He's got about 15 different 
ways we can develop a solution, and that's very valuable for 
us.
    Jerry Lewis, as usual, wants to make sure we look at the 
big picture here. And, Jerry, we're going to do that.
    And George Brown, with his scientific background, has 
really added a lot to this.
    Let me just go to what I think is the big problem. The big 
problem is the physical problem. It's not a study problem, 
because if you hold up that salinity chart, you know that, at a 
certain salinity level, the fish die. You know that. You know 
that's going to happen.
    That doesn't require more studies or more backgrounds in 
salinity. We know that's going to happen. And second, we know 
the pace at which it's presently happening.
    So we can sit here and extrapolate that, at some point in 
the future, some date, we're going to have a dead sea.
    Now, the only way to fix that sea from being dead is to 
effect some physical changes--that is, to either put in enough 
freshwater into the Sea, and maybe enlarge the size of the Sea, 
as to dilute the saline content, or to discharge the saline 
content and somehow--that's George's idea of discharge to 
Laguna Salada--discharge the salt and get rid of it, because we 
have a glass with too much salt that's becoming saltier all the 
time, and you either have to put in fresher stuff or you have 
to somehow discharge the stuff that's already salty, or isolate 
it. And isolation, of course, is the idea of the dikes.
    Now, the idea was brought up, Mr. Spear and Mr. Johnson, 
that somehow, if you have a diked sea where you have part of 
the sea that's highly saline, basically a big salt basin, so 
that the remaining part of the body can stay alive and be 
relatively fresh, that that somehow would kill birds, or will 
have a deleterious effect on wildlife.
    Well, obviously, you won't have any fish in it if it's the 
saline content of the Dead Sea or worse. We know that. We 
conceded that. So we're cutting off one arm so that the patient 
can live, if you will.
    But there's no evidence that I've ever seen that birds 
would die because they landed in the salt. You've got highly 
salty areas in the Salt Lake in Utah, and birds don't die 
because they land in salt water. That's not what's killing the 
birds. I mean, a lot of things are killing the birds with 
respect to stuff that's being shipped in from New River.
    But I would like you to answer this question, one question, 
and I'll give you a couple of them.
    First, do you have any evidence that simply having the 
saline impoundment, the salty impoundment would, in itself, 
result in a lot of bird deaths?
    Secondly, it appears to me that we know, even though we 
haven't researched all these diseases that are coming there New 
River, we sure as heck know that they are a product, part and 
parcel of the massive sewage discharge in Mexicali.
    So again, we have an issue that begs a physical solution--
that is, weaning the city of Mexicali from that New River, 
keeping its sewage from pouring into New River. And that's the 
project that we're embarked upon with this big joint project 
with Mexico. So we need to do that.
    Now, to help, there's a third dimension that hasn't been 
inserted here. And Mr. Tom Veysey, one of our great valley 
leaders, did bring this up. But that's an idea that a lot of 
our conservation groups, led by Desert Wildlife Unlimited, are 
moving on right now.
    And that's to build a series of pounds, if you will, along 
the 50 miles of New River, between Mexico and the United 
States, with the idea that you flow--and we've had lots of 
research facilities that have validated this--as you flow water 
through this filtering marsh, if you will, you, to some degree, 
incrementally clean up that water.
    That wouldn't be a bad thing, whether the Mexicali project 
is a 90 percent solution or turns out to be a flop or whatever, 
because in the least, it gives you more filtration and more 
cleanup than you had before.
    One problem that our people have given us down there is 
that, looking over at first blush, the Imperial Irrigation 
District, looking at our EPA laws, have found that, if you 
touch the New River, once you take one drop of water out, you 
have to return that drop of water in literally drinking 
condition. So you can't incrementally clean up the river--
another case of something that we've done to ourselves.
    We may need to change that law. And I would like your 
comment on the validity of perhaps changing the law to 
accommodate an incremental cleanup as you go down through this 
ponding system.
    And the Chairman is going to be meeting with some of those 
folks who are doing that citizens' task force later on today, 
and we would sure like to invite your presence.
    But, if you could answer those questions, we would 
appreciate it.
    Mr. Spear. On the latter one, which I remember the best, 
we've certainly shown that various places around the country--
Arcadia, California is one of the great examples--where use of 
marshes as wastewater cleanup facilities--in that case, you go 
from your contaminated, polluted water, to a Stage 2 type--I 
think it's a Level 2 type treatment within the marsh.
    I personally--and again, just from my--I don't understand 
the problem of moving it through and incrementally continuing 
to clean it up. I mean, I think we're seeking overall cleaning. 
To sort of stop at maybe one point, and then not continue 
further, may be a problem.
    But if it's a matter of incremental cleaning, running it 
through a series of marshes, it seems to make sense to me.
    Mr. Hunter. We may have to have a law change to do that, so 
we may need your assistance.
    Mr. Spear. I hadn't heard that we had that problem before.
    You mentioned earlier the comment about the dike. I wish I 
could say more, and I would like to get back to the Committee 
on that point. Just so that I don't give you an impression that 
it's all OK or it's all bad, I'd rather go back and talk to 
my----
    Mr. Hunter. OK.
    Mr. Spear. [continuing] on the subject of what happens when 
the birds land in a very high salinity environment and what 
issues there might be as they related to this circumstance 
here.
    Mr. Hunter. OK. But, as of now, do you have any information 
that salt ponds, if you will, in themselves, are dangerous to 
wildlife? Does anybody have any information on that?
    Mr. Spear. I would rather get back to you.
    Mr. Veysey. Duncan, on the Salton Sea, there's many areas 
that are inlet areas, where it's very shallow, and the water is 
back in there, and it looks almost stagnant. And the birds 
relish that area. They like it better than more out into the 
Sea. I don't think that salt is a big problem there.
    There's also some dead fish in those areas, and I've never 
seen any dead birds.
    Mr. Hunter. Thank you, Mr. Chairman, and thank you for your 
brilliant conduct of this hearing, while we're at it.
    Mr. Doolittle. Thank you for your brilliant insight, Mr. 
Hunter.
    Let me ask as Chairman, I don't think we'll need a second 
round of questions, but I would ask unanimous consent for five 
additional minutes for me to pose one or two more questions, 
and if anyone else wishes to share the balance of that time, 
I'll be happy to make it available. Is there any objection to 
that?
    Mr. Lewis. Reserving the right to object.
    [Laughter.]
    Mr. Doolittle. All right. Mr. Veysey, you testified that 
the bacterial count at the point where the Alamo River enters 
the Salton Sea is roughly equivalent to what it is where the 
New River enters the Salton Sea; is that correct?
    Mr. Veysey. Yes, that's correct.
    Mr. Doolittle. Now, either that means it's pretty good in 
the New River or the Alamo River has problems. I'm not that 
acquainted with the Alamo River. So which is it?
    Mr. Veysey. Well, the Alamo River doesn't take sewage from 
Mexico, and the New River does. So the New River starts out 
bad.
    Mr. Doolittle. All right. So really, then, this issue of 
the New River polluting the Salton Sea is perhaps overstated?
    Mr. Veysey. Absolutely.
    Mr. Doolittle. OK. Mr. Johnson, the Colorado River, as I 
recall, is one of the most widely fluctuating rivers in the 
United States. Maybe it is the most.
    What about the idea--I see elements of a solution here. 
Occasionally, it has enormous flows which cannot be predicted 
very well in advance, I guess, but you would have some idea 
perhaps a few months ahead of time that you will have those 
flows.
    Is there a solution out there that would allow for--of 
course, I realize we will have to deal with getting rid of the 
water that's in the Salton Sea if you did that. But is there a 
solution that would allow, in times of high flows in the 
Colorado River, to send in a couple of hundred thousand extra 
feet into the Salton Sea?
    Mr. Johnson. Periodically, there would be times, as I said 
before, and I don't have numbers off the top of my head to give 
you an idea of how often that would occur.
    But there could be times when we literally have so much 
water coming in that we're making releases and, in fact, we 
would be encouraging people to divert water. In fact, we've 
been doing that this year and, in fact, you know, additional 
water could be put in.
    I think over time the availability of that water is going 
to go down.
    Mr. Doolittle. Yes. When do you expect the full capacity of 
the Colorado River----
    Mr. Johnson. The Colorado River is an over-allocated, as 
everybody knows, the lifelong debate of the Colorado River is 
it's an over-allocated resource. Average annual flow is about 
15 million acre feet, and the amount allocated in the United 
States and Mexico is about 16\1/2\ million acre feet.
    Now, our saving grace is that we're not currently utilizing 
all of the water that's been allocated, but in time, 
potentially, as upper basin development occurs, the frequency 
of additional water would decline. We'll have more storage 
capacity and we'll capture and store all of those flows for 
consumptive use under the compact in the decree.
    Mr. Doolittle. So, long-term, an additional source of high 
quality fresh water would be highly desirable for this area?
    Mr. Johnson. It would be desirable, but I don't think you 
can count on the Colorado River providing a long-term source 
for that purpose.
    Mr. Doolittle. I have an idea that I'll discuss later with 
Members of a way maybe we could get that.
    I have a few more minutes left. Does anyone wish to----
    Mr. Bono. I do, Mr. Chairman.
    Mr. Doolittle. OK, I'll yield to Mr. Bono.
    Mr. Bono. Mr. Hardie, is it possible that a solution may 
not be one solution, but some of the above, or a few of the 
above? It seems like maybe that's something we should be 
looking at, as well.
    Mr. Hardie. That's right. If you go with diked impoundment, 
for example, there will have to be pump-out eventually. So 
diked impoundment will require pumping out the brine water 
someplace.
    I want to say one thing about this concern about if the 
birds put their little behinds in salty water, then that's bad.
    If that's bad, then almost no solution will work, because 
if we send this water to Laguna Salada, I don't think we have 
Mexican birds and American birds. So those birds are going to 
be sitting their little behinds down in Mexico, too.
    So I think we need to be concerned about that water, 
whether it's in a diked impoundment in the U.S. or whether it's 
in Laguna Salada in Mexico.
    Mr. Bono. Mr. Spear, I think I can safely say that part of 
the vision of the community, of the entire district, I think 
is, if we are going to find a solution, to also look to 
maximize the recreational use of the Sea, if we get to that 
point, to try to do everything, which could create, I think, an 
economic boom in the industry.
    I was just wondering if that vision is in communication 
with your vision of fixing up the Salton Sea.
    Mr. Spear. A clean Salton Sea, people would be encouraged 
to go to and recreate on, which be absolutely spectacular for 
fish and wildlife and ecological purposes.
    Mr. Bono. That's great. Thank you very much, Mr. Chairman.
    Mr. Calvert. Mr. Bono is right when he says that there may 
be more than one solution potentially. And the reason I brought 
up the Colorado River earlier--and I understand that it's been 
over-allocated probably, depending on how many lawsuits you 
look at--is that that would be a short-term solution, maybe 
only a 20-year solution.
    But finding water is the real problem here, in the long 
term, as Mr. Doolittle pointed out, and there may be other 
sources of water we can look to in the long term.
    But in the short term, the potential diversion of the 
Colorado River in times of excess may at least bring the 
salinity level down where we could buy some time and bring the 
Salton Sea into a more livable condition.
    Mr. Doolittle. Mr. Brown.
    Mr. Brown. Mr. Chairman, I want to respect your decision as 
to when to terminate this panel, so don't let me run too long.
    I'd like to ask two questions, one to Mr. Johnson. And, Mr. 
Johnson, I have the greatest respect for you, but sometimes I 
can be very critical of people that I respect.
    [Laughter.]
    Mr. Brown. You made the statement that the Bureau of 
Reclamation doesn't have enough information to make a 
recommendation on the solution to the Salton Sea problem.
    The Bureau has more experience with this problem than any 
other agency, been working on it for at least 25 years that I 
know about, yet you didn't even calculate the cost, the capital 
cost, of a pump-out solution.
    I know the answer, but would you tell us why you didn't do 
that?
    Mr. Johnson. Well, I think we made some rough estimates of 
capital costs, but I think we were also, in conjunction with 
the Authority, concerned about O&M costs, and we thought the 
O&M costs looked pretty high on that alternative.
    Mr. Brown. The O&M costs would exceed the $10 million.
    Mr. Johnson. Right.
    Mr. Brown. That's the statement that is made in your 
report.
    Mr. Johnson. Yes. Yes.
    Mr. Brown. Now, one of your pump-out solutions only cost 
$12 million, so you were getting pretty close to the limit to 
making it.
    Los Alamos made the estimate that the pump-out solution 
would cost $300 million and $5 million in O&M. Isn't that close 
enough to justify looking in more detail at the----
    Mr. Johnson. We have not eliminated any alternatives, and I 
would not imply that we have eliminated a pump-out from any-

thing that we're considering. I certainly didn't mean to imply 
that Reclamation has concluded that a pump-out solution was----
    Mr. Brown. I really think your problem here is that diffuse 
jurisdictional responsibility, which I have talked to the 
Secretary and the under secretary about, and suggested that 
they might solve that problem, and we could get more action 
here, and that would open your opportunity to do a little more 
effective or directed job on this, would it not?
    Now, let me ask Mr. Spear a question. Mr. Spear, you 
indicated what you're doing is a bandaid approach to this whole 
problem of the Salton Sea. You're not solving the problem, 
you're just kind of disposing of the carcasses in a sanitary 
way, and that's not really the long-term solution, is it?
    Mr. Spear. No, and maybe I should clarify that. The problem 
we have is, if we don't dispose of carcasses, is that you leave 
the dead carcasses, there's continued feeding, those things are 
getting into the food chains. And so we spread it throughout 
the flyway.
    So it is not part of a long-term solution. It is trying to 
keep from getting----
    Mr. Brown. I'm not arguing the importance of it. I agree 
with the importance of it.
    I made an effort, in discussion with friends on the 
Appropriations Committee, to get $2 million to allow you to do 
a more effective job on that and to also do some planning for a 
restoration plan for the Sea, and I was informed from a number 
of sources that representatives of the department and the Fish 
and Wildlife were very unenthusiastic about taking that money. 
Do you have any information about that?
    [Laughter.]
    Mr. Brown. Well, as a taxpayer, I think this is noble, but 
as a person trying to save the Salton Sea Authority, I have 
serious qualms here.
    Mr. Spear. I believe you talked to Mr. Garamendi about that 
Monday. I heard about it, about 30 minutes later.
    Mr. Brown. Yes.
    [Laughter.]
    Mr. Spear. I was on a field trip in San Diego, and he found 
me on top of San Miguel Mountain, and----
    Mr. Brown. I'm delighted to know he's as responsive as I 
always knew he could be.
    Mr. Spear. Well, I indicated to him that we were aware of 
the proposal you were making and that we had given our support 
for that.
    I sense what has happened here--and I do not know for 
sure--is that what's happened is that we're at the end of the 
appropriations process, the beginning of conference, and the 
budget folks, in essence, get very concerned about whether that 
will be new money or taken out of somewhere else, and it's the 
end of the process.
    And I think that's the major--so it probably was not about 
the substance of the issue, it was more about where it was in 
the process.
    Mr. Brown. We're all students of the governmental process 
here, and we're interested in learning how it works, so this 
answer is very illuminating. Thank you.
    Mr. Lewis. But the problem is that, overnight, the $2 
million dropped to $1 million in the actual bill that was 
written, and that's a little disconcerting to me.
    Mr. Spear. Me, too.
    Mr. Doolittle. I'd like to thank the members of this panel 
for your testimony and the members of the Subcommittee. You've 
kept us on schedule, and that's good.
    There will be further questions that we would wish to 
direct to you, and the record will be held open for your 
responses. We would encourage you to make your responses in a 
very timely fashion. Did you want to--yes, sir.
    Mr. Codekas. Mr. Chairman, I would just like to say one 
thing before we close the session. The Authority has no crabs 
if Fish and Wildlife wants to do more studies, but we think you 
should start now reducing the salinity of the Sea. That's our 
position.
    Mr. Doolittle. OK. Thank you. Please respond quickly. With 
that, we will excuse the members of this panel. We are going to 
keep right on going, and I would invite the next panel, and 
final panel of witnesses, to come forward.
    In the interim, while they are coming forward, I would like 
to acknowledge that Senator Feinstein has submitted a written 
statement for the record, expressing her views in this 
important matter of the Salton Sea, and those views will be 
incorporated into the record.
    [The prepared statement of Hon. Dianne Feinstein may be 
found at end of hearing.]
    Mr. Doolittle. Gentlemen, will you please remain standing. 
Let me encourage our Subcommittee members, if they need, to 
take their conversations outside, so we can proceed and keep on 
schedule.
    Ladies and gentlemen, let me ask the audience, please, 
we're trying to conduct a hearing. It's going to be difficult 
if we have this level of background noise.
    I'd like to welcome Mr. Jim Stubchaer, Mr. Norm Niver, Dr. 
Philip Roberts, and Dr. John Zirschky.
    Mr. Lewis. Ladies and gentlemen, if you could, kindly keep 
quiet. If you must talk, please leave the room.
    Mr. Doolittle. Thank you. All right, gentlemen, will you 
raise your right hands? Let's see. Do we have Mr. Gruenberg up 
here, too? Yes, we've got him. All right. Good.
    [Witnesses sworn.]
    Mr. Doolittle. Thank you. Let the record reflect that each 
answered in the affirmative. Please have a seat. I think you 
all heard me explain how the lights work.
    Let us begin by recognizing Mr. Jim Stubchaer, who is the 
vice chair of CAL-EPA within the State Water Resources Control 
Board.
    He will be accompanied by Mr. Phil Gruenberg, the executive 
officer of the State Regional Water Quality Board. Mr. 
Gruenberg will be available for questions. Mr. Stubchaer will 
be offering the testimony.
    You are recognized, sir.

 STATEMENT OF JIM STUBCHAER, VICE CHAIR, STATE WATER RESOURCES 
                     CONTROL BOARD, CAL-EPA

    Mr. Stubchaer. Thank you, Mr. Chairman. On behalf of CAL-
EPA, I would like to thank the Committee for holding this 
hearing on this important subject. I am the vice chair of the 
Water Resources Control Board, which is a member agency of CAL-
EPA, and I am representing them today.
    I also represent CAL-EPA on the Mexican border affairs, so 
I have some familiarity with some of the issues you were 
discussing with the previous panel.
    As Mr. Lewis mentioned, Proposition 204, which was passed 
by the voters last year, does include $2.5 million of the 
Federal research moneys for the Salton Sea.
    Mr. Doolittle, I'm sorry. It was a little confusing. Mr. 
Gruenberg is going to make the presentation for us, and we will 
both be able to answer questions.
    Mr. Doolittle. Oh, that will be fine. Then, Mr. Gruenberg, 
you are recognized.

  STATEMENT OF PHIL GRUENBERG, EXECUTIVE OFFICER, CALIFORNIA 
  REGIONAL WATER QUALITY CONTROL BOARD, COLORADO RIVER BASIN 
                             REGION

    Mr. Gruenberg. Mr. Chairman, members of the Subcommittee, 
I've lived in the Imperial and Coachella Valley most of my 
life, so I've got a special interest in the Salton Sea. In 
fact, as executive officer of the Regional Board, I've set two 
goals, personal goals, for myself.
    Mr. Lewis. Mr. Chairman, folks in the back indicate they 
can't hear.
    Mr. Doolittle. You're going to just about have to pick that 
up like I'm doing it in order for people to hear you. Yes, 
there you go.
    Mr. Gruenberg. As executive officer of the Regional Board, 
I've set two personal goals for myself. One is clean up of the 
New River and the other one is the restoration of the Salton 
Sea.
    However, this cannot be done via regulation alone. I'm 
going to need help, and I come here humbly today asking for 
your help in achieving the goal of restoring the Salton Sea.
    I think one of the problems in the past, why not much has 
been done, is there has been too much finger-pointing and 
blame-placing on the issue of the Sea. You hear too many 
comments along the lines of ``They don't care,'' ``They need to 
clean it up,'' ``They're not doing anything.'' I think we need 
to think about who ``they'' really are--maybe me, maybe you.
    I think the bottom line on this is that we all share 
responsibility toward the problems of the Sea, and we're all 
going to have to work together to effectively realize a 
solution.
    As far as what that solution is, there's been a lot of 
studies done on the Sea. In 1965, the Regional Board contracted 
with Pomeroy Engineers to review the Sea's problems. What they 
concluded was that, as salinity increases, the fishery was 
going to decline and, ultimately, die out.
    Now, with that warning, not much happened. My feeling is 
not much happened because not that many cared about the loss of 
the sport fishery.
    In the last 5 years, it's been a lot more than that. 
There's been catastrophic die-offs of birds and what appears to 
be a total ecological collapse. It's something that we simply 
can't walk away from. It's more than just a sport fishery.
    What Pomeroy recommended was that an in-sea evaporation 
basin be constructed to control the Sea's salinity problem, to 
address this situation. Back at that time, I thought, ``There's 
got to be something better than this,'' and a lot of people 
thought the same way. But now, 32 years later, I'm back at that 
point exactly again, and I think they were right on target. I 
don't think there are many options, and I believe that's really 
it.
    There have been some other ideas that sound attractive--a 
two-way exchange with the Gulf of California. But with the high 
salinity of ocean water and the high evaporation of the Salton 
Sea, it simply isn't going to work.
    There are some flaws with diking. One of them is going to 
be the challenge of keeping waterfowl out of the diked area. 
The other one is, people have said dikes are ugly.
    Well, consider San Diego and Mission Bays. Those are 
largely diked, and they're actually quite attractive, so diking 
doesn't need to be ugly. It could be landscaped and have access 
for fishing and so on.
    It is also going to be important with diking to have the 
proper size of a dike and location. Pomeroy Engineers had 
recommended a 40 to 50 square mile dike. That's going to be too 
small. The salinity is too high now. I think 125 square miles 
is more on target.
    As far as where it's located, it needs to be away from the 
portion of the sea which is of greatest importance, and I kind 
of hate to suggest where this is, but the south end is 
important for fish spawning. There's a wildlife refuge, and it 
was a good area for corvina fishing. So I believe that the deep 
water area at the north would be the best, something along 
these lines.
    To conclude, I believe that salinity needs to be addressed 
as a priority, and we need to do it expeditiously.
    [The prepared statement of Mr. Gruenberg may be found at 
end of hearing.]
    Mr. Doolittle. Thank you. Our next witness is Mr. Norm 
Niver, who is with the Salton Sea Citizens Advisory Board. Mr. 
Niver, you are recognized.

  STATEMENT OF NORMAN E. NIVER, SALTON SEA CITIZENS ADVISORY 
                           COMMITTEE

    Mr. Niver. Thank you all, this whole panel, for being here. 
We've waited a long time for you guys to come, and I really 
appreciate your interest. I'll get on with my testimony.
    I live on the water. I live in the Sea. I fish the Sea 
every day. So I come from there.
    In 1956, scientists doing studies on the Salton Sea were 
predicting the Salton Sea's demise by high salt levels. A study 
at the time, the best of its kind to date, found massive fish 
die-offs along the seashores. Death of the fish due to algae 
blooms were creating oxygen insults to fish caught up in them.
    At the time, scientists were aware of the wind-driven 
currents that would gather floating dead fish and assemble them 
into large bodies of death, floating from here to there, 
meandering from the direction of the wind.
    Fish were observed swimming upside down, spiraling like 
airplanes at air shows, up and down, all near death, brain dead 
with enough nerve movement left in their bodies to fulfill 
their waning wiggles in their final moments. The fittest of the 
fish always survived.
    The question to these scientists was where would this die-
off accumulation of fish end up? They thought out the areas 
well, to get a more accurate dead fish count than they do 
today.
    Fish populations grew, from 1950 to 1955, millions of 
healthy sport fish. Many fish died. Some fish died from 
starvation. Most died from algae blooms created by the rich 
nutrients flowing into the sea from local farmlands.
    The point of this is, fish have been dying here at the Sea 
from 1955 until now. I personally actually see less fish dying 
at this time than I have ever witnessed since being involved 
with the Sea 30 years ago.
    Throughout the 1960's and 1970's, we could always find 
fresh dead corvina and croaker in some given place, as we 
fished the Sea. These kills always occurred during the summer 
months--big corvina, floating belly up, areas as big as 
football fields heading toward shore. It looked like a white 
floating freeway.
    The fish would back up against shore, out at least 200 
feet, only to drift away with the help of a Borego wind from 
the southwest, the next day.
    What we are seeing today is tilapia that died perhaps a 
week to 3 weeks ago, very few fresh dead fish found along the 
west shores. It's unlike it used to be.
    Over the years, the public's feelings have changed from 
acceptance of the Salton Sea to rejection of the Sea because of 
the fear of people to use it for recreational purposes. The 
public, since the selenium scare, have progressively turned 
their back on the Salton Sea as an option.
    There has been, and continues, an unnecessary assault on 
this maligned sea. The thousands of people surrounding the Sea, 
people that know the Sea well, are amused at the ongoing 
redundant press releases about fish in the Sea, at the same 
time being very sympathetic to the U.S. Fish and Wildlife 
Service for their hard and depressing work, last year and 
today, to some degree, cleaning up the bird die-offs.
    Press releases still pour from them, even though the bird 
deaths are much lower than last year. I say the world already 
knows about what happened at the Salton Sea. I think it is 
about time to tell the people that avian botulism kills 500,000 
birds in the United States each year. Forty thousand perfectly 
healthy birds left the United States and died in Mexico of the 
same problem.
    Why do they keep blasting the Salton Sea with ``I think 
so's,'' ``It's a hypothesis,'' or ``It's a theory,'' or the 
assumption that it is the ``sewage from Mexico''? This current 
opinion of the Salton Sea has grown rapidly over the last 10 
years. Our people have never read so much negative hits on this 
sea.
    If it is the ``squeaky wheel gets the grease'' bit, it has 
never worked until now. However, why would taxpayers invest in 
a cesspool that is sick and dying?
    Some teachers even teach the filth, the ilk, and the 
cesspool concept of the Salton Sea with their data based on 
press releases, assumptions, and theories brought forth by 
their reading of the local news media.
    Unfortunately, these false impressions have been placed in 
the public's mind all over the earth, repeatedly. The public 
and the schools are provided with misleading information that 
add to their already preconceived ideas of the Salton Sea.
    New workers coming to agencies involved with the Sea arrive 
knowing everything about the Sea, they think when, in fact, 
they only know what they read or watched on the electronic 
media.
    The support groups, everywhere, the local economy, 
businesses, property values, along with people's lives, have 
been destroyed by this action. They laugh and yet cry over the 
loss of this valuable resource to all.
    Dead fish, windblown, gather in certain areas. The press 
will photograph them and call them massive fish kills--killed 
on this very spot, they think. This adds to preconceived 
opinions of the Salton Sea and drives the public away while 
devaluing the very Salton Sea that we would hope that taxpayers 
would be willing to pay to have it saved.
    All dead fish were fresh dead at one time, but where did 
they come from? Where did they die? Where did they originate?
    Today, is it a natural cycle working on this wall to wall 
population of this perch-like fish, the tilapia? Die-offs are 
different today. Dead fish counts are far from accurate--and 
that's emphasis added.
    The water quality issue is salts. Nine million tons each 
year flow down the Colorado River. This river water comes to 
the Coachella and Imperial Valley's farmlands--comes from.
    Each year, 4 million tons of salts arrive at the Salton Sea 
in agriculture runoff water to add to the 460 million tons that 
are currently in suspension in the water of the Sea today.
    This is for sure: evaporation of Salton Sea water is the 
only means of water leaving the sea so far. These salts, left 
behind, accumulate into the amounts that are currently 
stressing the fish and birds at the Salton Sea.
    Salt removing can be corrected quickly by building a dike 
option, as proposed by the 1974 and 1975 and the 1986 and 1992 
efforts to find a salt-removing project for the Salton Sea. The 
great Salton Sea Authority and its talented Technical Advisory 
Committee has also come up with these options, once again.
    A dike, for the first time, will give the Salton Sea an 
outlet. Salt removal is faster on some options. More study will 
have to be done on the final option.
    Mr. Doolittle. Mr. Niver, can I just interrupt? You're 
making an excellent statement, but can you summarize the 
remainder of it, rather than read the remainder?
    Mr. Niver. Sure. Gentlemen, I could go on for hours and 
hours.
    [Laughter.]
    Mr. Niver. The beautiful birds and the great fishing is 
outstanding at this time. It is about time to bring a billion 
dollars income to both Riverside and Imperial Counties in the 
future. It is about time to recognize that only 16 percent of 
the people in California even play golf; 17 percent play 
tennis.
    If you look into the problems of California, you will find 
that one-half the population live from Los Angeles to the 
border. Fifty-nine percent of those want and need water-
oriented recreation areas. It is a positive for the fish and 
wildlife. It is another positive for the counties and the State 
of California.
    Thank you.
    [The prepared statement of Mr. Niver may be found at end of 
hearing.]
    Mr. Doolittle. Thank you very much, sir. Our next witness 
is Dr. Philip Roberts, Associate Dean of the College of Natural 
and Agricultural Science, the University of California at 
Riverside. Dr. Roberts.

  STATEMENT OF PHILIP A. ROBERTS, ASSOCIATE DEAN, COLLEGE OF 
 NATURAL AND AGRICULTURAL SCIENCES, UNIVERSITY OF CALIFORNIA, 
                           RIVERSIDE

    Mr. Roberts. Thank you, Mr. Chairman, and I thank the 
Committee for their time.
    My testimony will present the proposed role of the 
University of California in the coordination and conduct of 
research and implementation addressing the solution options to 
the stabilization and water quality improvement of the Salton 
Sea.
    The University of California at Riverside has been asked to 
coordinate research efforts for the UC system because of its 
concentration of relevant programs and expertise and its 
proximity to the Sea. We propose to provide a research 
coordination for not only the UC system but also with other 
institutions and state and Federal agencies.
    Why is such coordination needed?
    We recognize that there have been a number of helpful, 
numerous previous research activities and assessments, many 
referred to today, over the last several years. However, in 
general, they've been limited by the complexity of the 
scientific issues involved.
    These issues include hydrology, engineering, biological-
ecological systems, soil and toxics, chemistry and 
bioremediation, salinity and wastewater management, economics, 
agricultural interests, and human social and cultural 
considerations.
    Although good evaluations and some data are available for 
some components, a holistic approach that integrates the 
component issues across disciplines we feel is lacking still, 
at this time. We do not have the cause-effect-solution 
relationships for all component parts and their solution 
options when we try to target a decision on a solution.
    The university proposes to provide the objective forum and 
a core of expertise to pursue a comprehensive research-based 
analysis of primary proposals for solutions. We are now in the 
process of pulling together an action team of UC and other 
scientists, to this end.
    Now, what can we contribute?
    Within the system, we have research expertise, programs, 
and facilities. At UC Riverside alone, we have about 25 faculty 
who have expertise bearing on the many complex issues which 
face the Sea.
    Coordination of scientists from several UC campuses will be 
necessary, and we recognize that about 12 percent of the water 
expertise scientifically in this country is found at the 
University of California.
    We have made contacts with scientists at Berkeley, Davis, 
Irvine, UCLA, San Diego, Santa Barbara, and preliminary contact 
with Los Alamos.
    Coordination of scientists from other institutions and 
agencies will be necessary, obviously. Therefore, we will 
coordinate also with state and Federal agencies and other 
universities in this coordination role.
    The University of California is the state's land-grant 
institution and we have, as our mission, to provide educational 
research and public service programs which can help you, as 
policymakers.
    We are well positioned, therefore, to serve in a role of 
honest broker and provide coordination of the research, rather 
than the policy end of providing a solution.
    I'd like to highlight a few programs that have direct 
relevance and facilities with relevance to the Salton Sea, 
within the UC system.
    We have the Salinity and Drainage Program, headquartered at 
UCR. It's a consortium of scientists which have been studying 
similar problems in the Central Valley, most notably took a 
successful leadership role in addressing the Kesterson National 
Wildlife Refuge Problems.
    We have the University's Water Resources Center, founded in 
1957. It's a multi-campus research unit established to 
stimulate and aid research on water-related issues.
    At the UC Riverside campus, we have the U.S. Salinity 
Laboratory located on the campus site, devoted specifically to 
the study and amelioration of salinity and pesticide-related 
agricultural and environmental problems. Many of the scientists 
there have UC-adjunct appointments.
    We have also headquartered at the university the University 
of California Institute for Mexico and the United States, 
commonly referred to as UC-MEXUS.
    This program has undertaken a long-term research focus on 
binational issues of water and the environment in the 
California-Mexico border region, which we feel would be 
critical to assessing and implementing any solution that would 
involve a binational component to the solution. Here, we could 
draw policy and science together in terms of the binational 
issues.
    We also have a newly formed Center for Conservation Biology 
at UC Riverside that focuses on issues related to habitat 
restoration, constructed wetlands, et cetera.
    Finally, in terms of facilities, we have a 540-acre 
agricultural research station four miles from the north shore 
of the Salton Sea.
    We believe that this would be most suitable for a research 
base for efforts involving scientists from other UC campuses 
than our own, and also from other universities and state and 
Federal agencies.
    In terms of an action plan, we envisage a four-phased 
approach to this phase, in terms of the coordination of an 
action of research.
    Phase I is an evaluation phase, a short timeframe of two to 
three months in which a further review of existing data would 
determine information gaps and research needs.The purpose here 
is to integrate priorities across disciplines.
    Mr. Doolittle. Dr. Roberts, can you summarize the rest of 
your excellent testimony, just in the interest of time?
    Mr. Roberts. OK. The other phases would follow a testing 
phase of from one to three years, to do a feasibility study. 
This would work in parallel, then, with Phase III, an 
implementation phase, in which we would monitor the actual 
implementation of a solution from a research standpoint.
    My final point is that the university would look at a long-
term partnership and monitoring relationship in this process 
and take ownership of the health of the sea long after the 
actual solution to be adopted has been put in place.
    I thank you for your time.
    [The prepared statement of Mr. Roberts may be found at end 
of hearing.]
    Mr. Doolittle. Thank you, sir. Our final witness is Dr. 
John Zirschky, who is the Acting Assistant Secretary of the 
Army for Civil Works. Dr. Zirschky.

 STATEMENT OF JOHN H. ZIRSCHKY, ACTING ASSISTANT SECRETARY OF 
                    THE ARMY FOR CIVIL WORKS

    Mr. Zirschky. Thank you, sir. I'll be very brief--three 
minutes or less.
    I would like to spend the first minutes telling the people 
in the audience--you know us well--to tell those in the 
audience why the Army Corps of Engineers is here; two minutes 
saying what we've done in the one year that we've been involved 
in this project.
    The United States Army Corps of Engineers is about 222 
years old. We've served our country as the nation's problem-
solvers. We're one of the few Federal agencies the founding 
fathers would still recognize. In fact, we are the first 
environmental protection agency in this country.
    Almost 100 years ago, in 1899, Congress directed the Army 
to keep people from throwing their garbage into the rivers. So 
you may want to, in 1999, take credit for your predecessors and 
celebrate the 100 years of Federal protection of our water 
quality.
    We are the world's leader in ecosystem restoration--from 
Lake Tahoe to the Florida Everglades, from San Francisco Bay to 
coastal Louisiana to the upper Mississippi. We support the 
Department of Defense, the Department of Energy, EPA, other 
Federal agencies, countries from Russia to Papua, New Guinea.
    I would add that a lot of the work we do for foreign 
countries is paid for by those governments. They're not 
American tax dollars. For example, the Papua-New Guineans asked 
us to come clean up a river system that they had, that was 
contaminated.
    These type of projects keep our military engineers in the 
Corps of Engineers trained and ready for other contingencies, 
such as natural disasters. It is how we get our training as the 
Army's engineers.
    When there's a North Ridge earthquake, for example, the 
same people that will be working on the project here will be 
crawling through the damaged buildings, making sure they're 
safe. So essentially, we think we provide two things for the 
price of one.
    Enough of the commercial, I suppose, although I might also 
add--Congressman Bono, you're interested in water recreation--
we're also the No. 1 provider in the world of water-based 
recreation, 400 million visits to our water projects, creating 
about 600,000 jobs.
    We got involved in this ecosystem a little over a year ago, 
in the beginning of 1996. In the first year that we were 
involved, we worked with the Imperial County and the Imperial 
Irrigation District to pick eight sites on the New River and 
the Alamo River that we could do some ecosystem restoration.
    Why these rivers? You noted in the first panel that 90 
percent of the flow coming into the Salton Sea comes in through 
these rivers. About 10 percent of the flow in the New River 
comes out of Mexicali. The rest of it is added by return flow 
and drainage.
    The health of these rivers, we believe, is very important 
to the health of the Sea. While salinity is a key issue, there 
are other contaminants going in there, and our ecosystem 
restoration projects, we believe, will help improve water 
quality.
    We are hoping to continue our partnership with the county 
and the Imperial Irrigation District, and build at least two of 
these projects, one for each river.
    What they will consist of are essentially wetlands and 
riparian habitat. Those projects will improve water quality and 
provide safe habitat for the birds. In other words, you will 
have additional places for the birds to go to, that will be 
safe. There will be no question the projects will extend the 
amount of habitat for them. We'll stop sediment transport and, 
we believe, also help the Pacific flyway route.
    Our actions, we think, are 100 percent compatible with and 
complementary to the other efforts discussed here today. We 
have some pictures of what a project would look like. I can 
take you up to the Sonoma Bay, Northern California, and show 
you some of the types of projects on the ground that we are 
contemplating building and helping to build here.
    We can support other efforts of the team that you've put 
together. Someone had mentioned removing sediments. We are well 
known for dredging. That's not always a plus with everybody. 
But if dredging needed to be done to deepen the Salton Sea in 
some areas, we obviously are the experts in that.
    We think such actions would not only get out contaminated 
sediment, but also create deeper water columns with cooler 
water which would be less apt to help bacteria grow. Cooler 
water also has more dissolved oxygen that the fish need to 
breathe.
    I think I've just about made my three minutes. I want to 
thank you and just mention we are the world's leader in 
ecosystem restoration. We think we're the A-team, and we're 
proud to be part of your team.
    [The prepared statement of Mr. Zirschky may be found at end 
of hearing.]
    Mr. Doolittle. All right. Thank you.
    We've heard the testimony, and I think just about everybody 
agrees that the increasing salinity of the Salton Sea is 
undesirable, but, after all, it's far less saline than the 
Great Salt Lake and, as Mr. Hunter brought out in the 
questioning, we're not having bird kills, as far as I know, in 
the Great Salt Lake. I guess, to one degree or another, these 
things just happen naturally from time to time on their own.
    You were saying, Dr. Zirschky, that you provide safe 
habitat for birds. But they don't know it's safe, right?
    Mr. Zirschky. True.
    Mr. Doolittle. As far as they're concerned, providing that 
habitat isn't necessarily going to solve this problem, because 
they're still going to go to the Salton Sea, I presume.
    Mr. Zirschky. Some will. Some would also go to our habitat.
    Mr. Doolittle. We don't even really know, do we--I don't 
think anybody claimed to know--why exactly these birds are 
dying, anyway, or what the source is. Mr. Niver, I thought, 
brought that out in his testimony.
    So I guess in that sense, you could study these things 
forever. But the fact of the matter is, if there is a common 
agreement that the increased salinity is negative, then we 
ought to at least be able to proceed along those lines to deal 
with that, as I think the gentleman representing the Salton Sea 
Authority was stating.
    Any disagreement with that?
    [No response.]
    Mr. Doolittle. Dr. Roberts, how can we ensure that all 
further research is going to be done on a coordinate basis?
    Mr. Roberts. Well, we see it as being a missing link in 
what's being presented.
    There's some 50-plus proposed solutions but, in almost 
every one you look at, there's a bias or an absence. Either 
that's a central engineering component, but how is that placed 
with the biological concerns? And you can go around in terms of 
the different components, and see that we don't have them 
pulled together.
    I guess what I have proposed to you in the testimony here 
is our system, which has been historically in the business of 
taking a coordination role in research directed at problems--
and I gave you the Kesterson National Wildlife Refuge problem 
and cleanup as an example.
    We have a large system, but we have within it mechanisms 
that would allow targeted and rapid response in a pooling of 
research to try to get at this integrated approach.
    Mr. Doolittle. So you would recommend using your system, 
then, as the clearinghouse, because you coordinate?
    Mr. Roberts. Our system, we are offering that as a 
possibility, and we have historically had success in providing 
that objective forum.
    I would like to restate that we see this as an inclusive, 
not an exclusive process, with our other university 
institutions outside the UC system, as well as the state and 
Federal agencies, the scientists and experts in those areas, 
too.
    Mr. Doolittle. OK. Thank you. A question to any of you who 
wishes to volunteer.
    Which agency should be the lead agency to deal with this 
problem?
    Mr. Niver. Locally?
    Mr. Doolittle. Well, local, state, Federal.
    Mr. Niver. The Salton Sea Authority, in my estimation, has 
done an excellent job.
    Mr. Doolittle. OK. And which percentage of the cost should 
we bear for rehabilitating this?
    [Laughter.]
    Mr. Doolittle. I think we have to know the answer to some 
of these questions. I don't want to hear that you think the 
Federal Government ought to be responsible for all of it.
    Dr. Zirschky.
    Dr. Zirschky. In our program, cost sharing is required for 
all of our projects, ranging from a 50/50 cost share to a 75 
percent Federal/25 percent local cost share, depending on what 
types of projects are needed.
    So the law specifies, for our activities, how much the 
locals must provide.
    Mr. Doolittle. OK. Mr. Stubchaer, would you care to 
volunteer the level of the state's participation in this 
project?
    Mr. Stubchaer. Well, I agree that some cost participation 
makes people more responsible. No, I can't volunteer how much 
the state participation would be.
    I think it would take a bond issue by the voters of the 
state, probably part of a bigger bond issue, that provides 
benefits to other, more populous areas of the state, before 
substantial amounts of state money should be available.
    Mr. Doolittle. Would we get some sort of a commitment from 
the state to arrange for that bond issue, or to find the money 
somewhere else?
    Mr. Stubchaer. There may be legislation pending for the 
next bond issue that would include some funds for the Salton 
Sea. It would either be done by the initiative process or by 
legislation to foreclose the bond issue.
    Mr. Doolittle. Mr. Gruenberg, will you hold up that picture 
of one of those dikes? Is there an island or something you had 
there? Let's see that again.
    Mr. Gruenberg. This one here?
    Mr. Doolittle. No, the other one. All right. That would be 
the dike containing this pond of highly saline water which you 
said--it looks like what you're proposing, this thing in the 
upper part of the Salton Sea, that would be roughly about a 
third of the area of the entire Salton Sea that would be 
contained within that dike; is that right?
    Mr. Gruenberg. That is correct. Because the salinity is 
greater now than it was before, and because water conservation 
is coming, I think you have to design it bigger than what had 
originally been recommended back in 1965.
    Mr. Doolittle. Mr. Niver, would this offend your feelings 
about the Salton Sea, to have this constructed?
    Mr. Niver. Yes, it would, at that particular end. Riverside 
County is out, and my friends from the state park are out, and 
it looks to me like Desert Shores is out.
    I prefer the dike in the center of the sea, just for 
beginning, now to get the salt out, turn it into an island 
later, and let the research go on to find a better and bigger 
way of doing the whole Sea.
    Mr. Doolittle. Mr. Gruenberg, do you want to respond to 
that?
    Mr. Gruenberg. This diagram doesn't show it real well, but 
the intent was to dike the Sea at the 20 to 30-foot contour. 
There would be no shoreline community cutoff in the beneficial 
uses or access using the Sea, including navigation.
    Mr. Doolittle. Well, with that stipulation, does that 
change your opinion, Mr. Niver?
    Mr. Niver. Looking closer, it would be like we would have a 
river leaving the north shore. We could go toward the 
Whitewater River and come around and arrive at Desert Shores. 
So it would be like a river, and coming down the river outlet 
would be right out in front of my house, which is OK with me.
    But I don't know. I question why you want it at that 
particular end, when what's wrong with the contour at the south 
end?
    Mr. Doolittle. My time is up. Having flown over the San 
Francisco Bay a number of times, you can see the dikes and the 
impoundment. I believe Leslie Salt either owns or used to own 
those.
    Is this similar to what we would be talking about, with 
these dikes where, through evaporation, they concentrate the 
salts? I don't think we'll be using it for table salt in this 
case.
    Mr. Gruenberg. Exactly. The salinity would buildup in there 
with time, and ultimately you would have to dispose of that, so 
that would take yet another project. But it would take quite a 
while for that to happen, because if the impoundment was this 
large, it would take a long time for that to buildup to the 
point where the salt would begin precipitating. So I would 
guess it would probably be 100 years or more before that 
problem would become an immediate need.
    Mr. Doolittle. Thank you. Mr. Brown, you are recognized for 
your questions.
    Mr. Brown. May I continue with Mr. Gruenberg for a couple 
of minutes or more.
    You apparently have been a supporter of the dike solution 
for quite a number of years, according to your statement; am I 
correct in this?
    Mr. Gruenberg. I would say, in the last 3 years, I have 
become absolutely convinced that the evaporation basin in the 
Sea is the best way to go.
    Mr. Brown. Have you made a cost estimate of the diked 
solution?
    Mr. Gruenberg. No, but others have.
    Mr. Brown. Would you submit those for the record, the one 
that you seem to be most inclined to support, the diking off 
about a third of the northern end of the Sea?
    Mr. Gruenberg. That is going to be more costly and, 
frankly, I have not costed that out, but it will be more costly 
than some other diking proposals.
    Mr. Brown. Well, some of the diking proposals went up to 
half a billion dollars. Is this going to be more costly than 
that?
    Mr. Gruenberg. My guess--and this is just a guess--is that 
it would be in that ballpark, in that vicinity.
    Mr. Brown. If you were presented with a pump-out solution, 
pump-out only, with the figures that were indicated by the 
gentleman from Los Alamos, of $300 million plus $5 million O&M, 
would you be inclined to slightly shift your views toward that 
kind of a solution?
    Mr. Gruenberg. Not necessarily, because a pump-out solution 
would require cooperation from Mexico, and----
    Mr. Brown. If you were assured of cooperation from Mexico, 
would you be inclined to support it?
    Mr. Gruenberg. Yes, I would be inclined to support it, if 
that cooperation was guaranteed off into the future for a long 
period of time.
    Mr. Brown. Thank you for that informative response.
    Have the board analyzed the long-term inflow to the Sea in 
light of the proposal to export irrigation water, the 
possibility of a cutoff of some part of the New River, and 
other circumstances, like the Metropolitan Water District 
buying up all the Alamo River and shifting it to Los Angeles?
    Mr. Gruenberg. The Regional Board is responsible for water 
quality control. The water rights associated with those other 
flows is a decision outside of our responsibility.
    Mr. Brown. Another matter of diffuse jurisdiction?
    Mr. Gruenberg. Yes.
    Mr. Brown. Do you wish to comment on that, sir?
    Mr. Stubchaer. Yes. I'm with the State Water Board, which 
hears appeals from Regional Board actions. We're part of the 
same agency.
    Mr. Brown. Yes.
    Mr. Stubchaer. So we do handle the water rights.
    Mr. Brown. Yes.
    Mr. Stubchaer. The application that you were talking about 
was just received and sent out for public notice, so that 
people can file protests.
    Mr. Brown. Which application is this?
    Mr. Stubchaer. The one for the Alamo and Whitewater 
Rivers----
    Mr. Brown. They actually had the gall to file that?
    Mr. Stubchaer. Yes.
    [Laughter.]
    Mr. Stubchaer. Yes.
    Mr. Brown. All right. And when are you going to act on it?
    Mr. Stubchaer. It's gone out. As I said, it's circulated 
for public comment, to give people the opportunity to protest.
    Mr. Brown. Tell me where to send the public comment, and 
you'll get mine very quickly.
    Mr. Stubchaer. I'll give you my card. No, but seriously----
    Mr. Brown. You know, if that goes through, the Salton Sea 
immediately is reduced by 100,000 acres and the salinity goes 
up to the level of the Dead Sea.
    Mr. Stubchaer. Mr. Brown, I'm just the message bearer. 
Please don't shoot me.
    [Laughter.]
    Mr. Brown. If I get excited, I'll shoot anybody.
    [Laughter.]
    Mr. Stubchaer. But I also have to say that, if this matter 
comes before the board, when I'm on the board, I don't want to 
have any ex parte contacts on my record that will disable me to 
consider the evidence fairly, so I don't want to express any 
opinions of what I know or do not know.
    Mr. Brown. All right. Let me tell you where I'm coming 
from, you know. For 35 years, we've been looking at dike 
solutions, and only within the last two or three years have we 
recognized that it's inevitable that the Salton Sea is going to 
have less water flowing into it.
    Most people don't realize that there is a one-to-one 
connection between the amount of water flowing in and the 
surface of the Sea. If a third of the water is cutoff, the Sea 
shrinks by at least a third.
    Now, I'm asking you if you've made any projections as to 
what the situation will be, say, 10 years from now.
    Mr. Stubchaer. I have personally set up a computer model 
that analyzes the inflow, outflow, evaporation, concentration 
in the Sea.
    However, this Metropolitan application just came in a week 
or so ago, so we haven't had a chance to analyze what that 
would be. We hadn't foreseen this eventuality.
    Mr. Brown. Another thing that that does, if the Sea shrinks 
by one third, is to leave an awful lot of dikes sitting up in 
the desert. Have you considered that?
    Mr. Stubchaer. Again, I will say we haven't considered the 
exporting of the Alamo or Whitewater River water away from the 
Salton Sea, because we just heard about it. We haven't had time 
to consider it.
    Mr. Brown. Have you heard about the possible sale of 
conserved irrigation water to San Diego?
    Mr. Stubchaer. I've heard about that.
    Mr. Brown. Now, how much would that reduce the Salton Sea?
    Mr. Stubchaer. We have not studied that.
    Mr. Brown. You have not studied that? Well, I'll tell you. 
If they go to 600,000 acre feet export, that will reduce the 
inflow by 200,000 acre feet and that ought to leave you with a 
beach about a mile wide, all around the Salton Sea. You haven't 
studied that yet?
    Mr. Stubchaer. No.
    Mr. Brown. Could I ask you to study it?
    Mr. Stubchaer. Well, you can ask.
    Mr. Brown. But the state wants to continue to be a player 
in this game, don't they, or do you just want to criticize what 
the Federal Government is doing?
    Mr. Stubchaer. The sale of the conserved irrigation water 
from the Imperial Irrigation District to other areas of the 
state is being studied by other folks right now, and the 
director of the Department of Water Resources, David Kennedy, 
is trying to broker a solution to that issue. And so it would 
be inappropriate for me to say anything more right now.
    Mr. Brown. All right. I'm not trying to bug you that much. 
We'll bug Mr. Kennedy next time.
    Mr. Chairman, I have used my 5 minutes, and I will gladly 
terminate it at this point, but if there's a second round, I 
would use it.
    Mr. Doolittle. Thank you. Mr. Lewis is recognized.
    Mr. Lewis. Thank you, Mr. Chairman.
    I'm not sure who to address this initial question to, but 
it is my understanding that the Colorado River is in somewhat 
excess, in terms of water flows at this point, at this moment, 
versus what we often find ourselves with, the past history. A 
lot of people are talking about El Nino. That could create all 
kinds of circumstance.
    Is there, in the real world, a prospect of excess that 
might very well be diverted to the Salton Sea, providing a 
short-term freshwater input that would give us some time here 
to meet the challenge of these very difficult problems that we 
study and work on? Yes, sir.
    Mr. Niver. On the Salton Sea Task Force, which lasted for 7 
years, we studied that, and all we did really was talk about 
that excess water.
    And there are times, if I remember right, like every 10 
years, at least, depending on how the snow pack on the Rockies 
was--what they can tell you is that the mouth of the--as the 
Colorado empties into the Gulf of California, it doesn't do 
that too often, it ends in rancid salt flats.
    So, during our talks with the Salton Sea Task Force, it was 
discussed that we could actually, in high runoff years, run 
down water from the old Alamo Canal, right back into the sea, 
without too much problems.
    When Mr. Calvert talked about that earlier, it was talked 
about very seriously, about high runoff years, running fresh 
water for flushing into the Sea, but only on the high runoff 
years, and I don't think they're that seldom particularly any 
more.
    Mr. Lewis. Other comments on that? Yes, sir.
    Mr. Gruenberg. Putting Colorado River surplus water in the 
Sea would be extremely beneficial to the Sea from the 
standpoint of its salinity and water quality problems, but 
there is another problem with doing that right now.
    The Sea is at the elevation whereby if you put more water 
in there right now, it's going to cause more flooding. So 
that's something that could be done if the elevation drops down 
more effectively, to fill it back up, but right now would not 
be the time.
    Mr. Lewis. I appreciate that. That leads to my second 
question, and I would ask Mr. Zirschky specifically.
    The Corps has had a lot of experience with dredging. Would 
dredging on the southern end of the Salton Sea have an impact 
that would be positive in terms of this solution, especially if 
there were excess waters that we might tap, and thereby give us 
all more time to work toward a long-term solution here?
    Mr. Zirschky?
    Mr. Zirschky. It could be very well worth looking at, sir. 
By taking out some of the sediments that have contamination in 
them, that would allow for a deeper water column. The water 
would be cooler. The bacteria that are causing some of the 
disease wouldn't have as good a climate to grow in.
    The cooler water also has more oxygen in it than warmer 
water. That helps the fish breathe.
    One of the reasons for the salinity is the evaporation 
coming out of the lake. If you have two lakes with the same 
amount of water, one that's broad and shallow, one that has 
very little surface area but is deep, you will lose a lot more 
water out of the broad and shallow one.
    So if you deepen the lake, put more water in, you'll have 
less evaporation in relation to the total volume of water in 
the lake.
    Mr. Lewis. As we're going through, Mr. Chairman, with 
trying to coordinate these studies and attempting to find new 
sources of revenue, it sure seems to me that we ought to very 
quickly look to two possible elements.
    One is deepening the lake, dredging being a piece of that, 
a very, very important part of that. The other is if, indeed, 
there's excess and the prospect for excess in the near term, we 
need to some way facilitate the diversion of that water.
    I know that MWD has a good deal of interest here, and for 
all the right reasons. They're trying to serve water to a 
burgeoning population in Los Angeles. In the meantime, this 
asset is at risk if potential water sources that could help us 
with this, short term, end up being diverted too quickly, or 
other than they might otherwise, to maybe L.A.'s needs.
    Mr. Calvert. [presiding] An excellent idea, Mr. Lewis, and 
I'm sure the Committee will pursue that.
    Mr. Lewis. Thank you.
    Mr. Calvert. Mr. Bono.
    Mr. Bono. Thank you, Mr. Chairman. Going along with Mr. 
Lewis's comments, the Army Corps of Engineers, we had a meeting 
last week, and brought up the dredging, and it was the first 
time that I had heard about it, but it seemed to make a lot of 
sense, from the standpoint that, if the water were deeper, the 
evaporation would be much slower and thus reduce the salinity 
from that point.
    However, the other logical thing seems to be, going along 
with what you're talking about, if you get the water lower, you 
don't have the problem of additional flooding, you could just 
refill the basin.
    With all the discussion that we've had here, and all the 
talk here, there seems to be in this a need for some action on 
an immediate basis. This certainly isn't a cure-all, but it 
seems like it would have to reduce the salinity, to add a great 
deal more clean water into that area and to deepen the water so 
that it would have all the plus qualities that you talked 
about.
    Are there any comments on that from any of you? Because if 
we could, one shot, fill that basin again, fill the Sea again, 
with purely clean water, and reduce the level of the water, I 
think it would be a quick solution to a bad problem.
    Mr. Niver. I wanted to add to that what he talked about. 
Yes, you have to have pump-out to Laguna Salada, and then 
reflush from here.
    One thing I remember from the task force, they suggested, 
if we were going to put that water into Laguna Salada, pump-
out, they would like it down toward the south end if I remember 
right, because it would revive their brine shrimp industry, 
which showed an interest. And that came across the Salton Sea 
Task Force.
    So the two together--bring in fresh water, pump out to 
Laguna Salada.
    Mr. Bono. OK. I agree, George. As I told you, George knows 
everything about the Sea there is to know, and he displayed it 
today. I just wonder if there's any comments on doing something 
really fast and reducing the salinity, soon, just to relieve 
the crisis. Does anybody want to comment on that? Yes.
    Mr. Gruenberg. One comment on the dredgeout idea. We know 
that the Sea's bottom mud contains potentially toxic materials, 
so that would have to be done very cautiously, and I would have 
some great concerns with that.
    Mr. Bono. OK. What do you have to say about that, Mr. 
Zirschky?
    Mr. Zirschky. I don't know the actual chemical makeup of 
the sediments, but I have heard that there are some toxins in 
them, and that makes dredging oftentimes difficult. We would 
have to work very closely with the State of California to make 
sure that we did it in a manner that would not temporarily 
increase pollution in the water, and second, that we had a 
place to put the sediments that was safe, if they were highly 
contaminated.
    Mr. Bono. Can that be done?
    Mr. Zirschky. We've succeeded, but it sometimes takes time.
    Mr. Bono. When you say time, are you talking another long 
time, or is it something that we could do on an immediate 
basis? Is this another study?
    Mr. Zirschky. Interagency coordination would be required. 
We could not do any dredging, however, without specific 
authorization and funding--when they talk about a line-item 
veto and a line-item agency, that's the Corps of Engineers. 
Everything we do is line-item-funded.
    We would need specific authorization and funding for that 
activity.
    Mr. Bono. What do you think would be a ball park cost?
    Mr. Zirschky. No idea, sir.
    Mr. Bono. No idea?
    Mr. Hunter. Ask what their unit dredging costs are.
    Mr. Bono. What's your unit dredging costs?
    Mr. Zirschky. I do not know what they would be in the 
Salton Sea, but they range anywhere from 67 cents a cubic yard 
to over $4.00 a cubic yard, just for the dredging.
    The disposal cost is often much more expensive. That can 
range from essentially free, where we're putting clean sand on 
a beach for shore protection to over $50 to $100 a cubic yard, 
if it has to go into a hazardous waste facility.
    Mr. Bono. Piece of cake.
    [Laughter.]
    Mr. Stubchaer. Mr. Bono?
    Mr. Bono. Yes.
    Mr. Stubchaer. I would like to just add to that, if you 
were to create 100,000 acre feet of storage by dredging, that's 
roughly 200 million cubic yards, and if it's a dollar a cubic 
yard, that's $200 million.
    So we think it would be much cheaper to get rid of the 
salty water, if you're going to replace it with fresh water, by 
exporting it, than by dredging, in this case. And then, as Mr. 
Gruenberg mentioned, you do have a potential selenium problem 
in the sediments, especially at the south end of the Sea.
    Mr. Bono. What about the notion that the Sea is too 
shallow, and that we have this evaporation occurring on a rapid 
basis, and creating a bigger salinity problem in the process?
    Mr. Stubchaer. Dredging an area like that would be 
extremely costly--I mean, really costly. And I doubt if it 
would compete with the diking or pump-out alternative. As you 
know now we're under oath here. This is just my best engineer's 
guesstimate, you might say.
    Mr. Bono. Thank you.
    Mr. Calvert. Thank you, Mr. Bono.
    My first question to Mr. Gruenberg is on your chart here, 
on your conceptual dike layout. And we were discussing local 
participation when the Chairman was here earlier.
    I'm sure Mr. Bono probably doesn't like this particular 
conceptual dike layout, because Riverside County would have the 
evaporation basin, where Imperial County would have basically 
the balance of the Sea.
    Mr. Bono. That would be awful.
    Mr. Calvert. When we get into local participation, all of a 
sudden Riverside County may feel less, you know, enthusiastic 
about involving themselves in this project.
    So, from a political perspective, I don't know if that's 
the solution, quite frankly.
    I'm going to go back to the concept of a pump-out theory. 
We've been talking about pumping out to Laguna Salada, which is 
an interesting idea, and I think it should be pursued.
    Going back to, say, evaporation ponds, somewhere nearby the 
Salton Sea, is it possible to create evaporation ponds that we 
can stack in a particular area, spreading water in those areas, 
allowing that water to evaporate, and then obviously, charging 
water back into the Sea through excess years from the Colorado 
River?
    Mr. Gruenberg. Yes, that would be very possible. That's 
been considered.
    I would say the problems, though, with that, are the 
environmental impacts in that outlying area, wherever it is.
    At least if the dike is located within the Sea's basin 
itself, you've eliminated a lot of those environmental issue 
because, if nothing is done about the Sea, we're just going to 
have a big problem, rather than this smaller dike problem.
    So you get into groundwater issues, and quite a few 
different things, by moving this outside of the Sea's area, and 
that has been suggested before, but I would say it's run into 
too many snags to get something done expeditiously.
    Mr. Calvert. Just from a layman who is not looking at this 
from an engineering perspective, but from a concept where this 
could be done reasonably quickly, with your pumping costs 
considerably cut, because you're not talking about a long pump 
up to Laguna Salada, if you could do something within several 
miles of the Sea, and I suspect that evaporation, if it's done 
properly in shallow ponds, can take place very rapidly--you can 
continue to pump water into those ponds--especially on a day 
like today; I think it's 102 degrees--and then convert water 
from the Colorado River in good years.
    Now, this obviously would be a short-term solution, and I 
think we'd have to look into things, as Mr. Bono pointed out, 
for a long-

term solution, because we would be dependent upon water from 
the Colorado River, which is probably not something we can 
depend on, but the Chairman has some ideas about some 
additional waters that I think we ought to pursue in the long 
run.
    Do you think that that's something that we can do rapidly 
if we all work together?
    Mr. Gruenberg. Well, it's been discussed before, and the 
difficulty is locating a place, a site to store this water. If 
that can be done, and the process expedited, environmental 
review and such, sure, it would work, and it's a possibility.
    But it's been suggested before, and we ran into a lot of 
snags in a hurry, so it just seemed to be much more difficult 
to proceed on than the dike inside of the Sea.
    But it's a good idea.
    Mr. Calvert. I can tell you, Mr. Gruenberg, that Mr. Bono 
here is not going to be excited about a dike that cuts out 
Riverside County, and I don't think that that's going to be an 
acceptable solution.
    I do think, though, evaporation ponds will get everyone 
here, maybe, I think, involved in a short-term solution, 
potentially, while we work on a long-term solution.
    Mr. Gruenberg. Let me make one thing clear. That dike is 
kind of my personal idea. The location of that, you could put 
that dike in many different locations within the----
    Mr. Calvert. Can we put it in Imperial County?
    Mr. Gruenberg. Yes, it could. It could definitely be put in 
Imperial County,
    [Laughter.]
    Mr. Calvert. Never mind. I didn't ask that question.
    Dr. Zirschky, I have one last question. We understand that 
salt concentrations, obviously, is the major problem we're 
talking here today, and the problems that we associate with the 
Salton Sea.
    Outside of dredging, that you just mentioned, which may be 
too costly, how can the Corps use its expertise and resources 
to rapidly reduce salt concentrations in the Sea? The one I 
just mentioned, is that something you can come out and do?
    Mr. Zirschky. On dredging, what we would be looking at 
would be hot spots, or areas of highly contaminated material--
not a dredging, probably, of the whole lake. That would take 
years just to get the permission to do something like that, but 
if there are highly contaminated areas, we would find those and 
get those out.
    We have done some work in salt environments up at Sonoma 
Bay, Yolo Basin, and Salt Bayou project in Texas. Basically our 
studies to date, though, have stopped at the border of the 
Salton Sea. We focused on cleaning up the Alamo River and the 
New River.
    I couldn't give you an answer on what we could do quickly, 
because we're not that familiar with what everyone has done on 
the Salton Sea.
    Mr. Calvert. Thank you.
    Mr. Doolittle. OK, Mr. Hunter, we're back to you.
    Mr. Hunter. Thank you, Mr. Chairman. While you were out, 
the task force had a little consultation on the cost-sharing 
that you brought up. We thought it would be roughly approximate 
that that took place with the Auburn Dam, between Federal and 
state government.
    Mr. Doolittle. Yes. Well, I hope you can achieve a more 
effective solution than they have so far with that.
    Mr. Hunter. That's true. Fifty percent of nothing is not 
going to help us here.
    Mr. Chairman, thank you. I think I've asked--I know I've 
got a lot of questions that I think have emanated from the 
outstanding questioning of my colleagues and the responses. 
There's just a lot of information we have to get here.
    And, Dr. Zirschky, if I think there's a lot of questions 
that surround the idea of recharge, this idea of maybe using 
surge in the Colorado to recharge. I think Ken's question with 
respect to the evaporation ponds at least raises a possibility, 
because you've got 500,000 acres of bombing range immediately 
attendant to the east of the Sea, so we should at least look at 
that.
    But we probably will have a lot of questions for you. Could 
you folks help us over the next three or four weeks, and 
respond to those?
    Mr. Zirschky. We would be delighted to answer any question.
    Mr. Hunter. I'm sure our task force will get some written 
questions to you.
    Mr. Chairman, I just want to thank you and my colleagues. 
We haven't solved everything here, but I think we've got a 
pretty good picture painted of the problem, and I think we know 
what areas we have to go into to gather more information before 
we can make a call.
    I think it's pretty clear that we've got to take action 
quickly, and that that doesn't preclude continued 
investigation, extended scientific analysis, which must attend 
that. But nonetheless, I think we're kind of putting together 
at least the embryo of an action plan here.
    Thank you, Mr. Chairman, and all my colleagues.
    Mr. Doolittle. Thank you very much. Gentlemen, I compliment 
you on your succinct testimony, and I compliment the members of 
the panel. We will have further questions, I am sure. I know 
Mr. Brown and I have further questions, and I think everyone in 
the panel up here does. So we will tender those in writing and 
ask you please to respond expeditiously.
    I will just conclude by observing, as a Northern 
Californian, where two-thirds of this state's water originates, 
that----
    [Laughter.]
    Mr. Doolittle. No, no. There's no bitterness.
    [Laughter.]
    Mr. Hunter. That water comes from Colorado.
    Mr. Doolittle. Yes, it does, and Arizona, when they start 
taking their full share, and Utah and some of those other 
states, there's not going to be all this excess that we're 
presently using, let along finding a few hundred thousand extra 
acre feet like we've been talking about, and a temporary base 
to solve the Salton Sea's problems.
    As an interim basis that, I think, is a very interesting 
idea that we ought to explore, but that will eventually be 
gone, for all intents and purposes.
    I would just observe, though, that it's been now nearly 20 
years since we have added any on-stream storage reservoirs to 
the water supply of this state. During that 20 years, our 
population has increased by more than 20 percent.
    You have all heard the testimony here today, and you all 
know that reducing the salinity of the Salton Sea is critical. 
If you had extra water, you could do that.
    We're going to have to, as citizens of this state and as 
citizens of the United States, recognize that additional water 
development is essential for maintaining and enhancing the 
quality of life that we have all been used to. We have just 
about run out of our ability, through conservation, to make do.
    So I just share that observation with you. We will all work 
hard to work on a solution for the Salton Sea. It's going to be 
very expensive, as you've heard, and it will be a combination 
of state and local and Federal.
    I think it's vital that we begin to recognize that there 
are other issues at play out there that we need to develop. 
These things take time. You don't have much time with the 
Salton Sea if you're going to stop it, as Mr. Hunter said, from 
becoming a dead sea.
    That dam he referred to up in our area, which will provide 
vital flood control for the city of Sacramento and will also 
provide several hundred thousand acre feet of some of the 
finest water known, is a potential source for the solution to 
this problem way down at this end of the state.
    So I'm going to propose to the Bureau that we take a look 
at that, and some of our officials, and see how we might--and 
the Salton Sea Authority--might incorporate possibly some 
aspect of that into the future for this area.
    We will now conclude the hearing. Before I conclude, I want 
to recognize--someone mentioned his name, but I want to 
recognize--the former Representative in the House of 
Representatives for this area, Mr. Victor Veysey. Will you just 
stand up, Vic, and be acknowledged?
    [Applause.]
    Mr. Doolittle. Mr. Veysey had a very distinguished career 
in both the state legislature and in the House of 
Representatives, and it's wonderful to see you here.
    With that, ladies and gentlemen, the hearing of the 
subcommittee is now concluded.
    [Whereupon, at 1:03 p.m, the Subcommittee was adjourned.]
    [Additional material submitted for the record follows.]
      Statement of Tellis Codekas, Chairman, Salton Sea Authority

    Mr. Chairman, Members of the Committee and Members of the 
Salton Sea Authority Task Force:
    I'm Tellis Codekas, Chairman of the Salton Sea Authority, 
and today I'm speaking on behalf of the Salton Sea Authority. 
My testimony begins with a short history of the Salton Sea and 
the Salton Sea Authority and why we have taken the lead in 
trying to save the Sea. Then, I'll tell you why we believe the 
problems of the Salton Sea need to be addressed and why we 
think it's a national issue and thus the need for Federal 
involvement. I'll close with an overview of the Authority's 
preferred alternative to solving some of the Sea's problems and 
the objectives we have targeted through implementation of the 
plan.

History

    The Salton Sink, which is largely below sea level, was once 
the bottom of a prehistoric sea. The Gulf of California 
originally extended north into what is now the Imperial and 
Coachella valleys. Periodically the Colorado River overflowed 
its natural levees and filled the valley between mountain 
ranges to form a vast lake, which rose to about 30 feet above 
sea level.
    The Sink was dry when construction of the Imperial Canal 
was completed in 1901. The Canal diverted irrigation water from 
the Colorado River just upstream of the Mexican Border. After 
about four years, silt deposits led to an attempt to relocate 
the diversion a short distance downstream from the border of 
Mexico. But unusual winter floods breached the diversion 
structure in 1905 and, for 18 months, the entire flow of the 
Colorado River poured through the Mexicali and Imperial valleys 
into the Salton Sink. The river break was finally closed in the 
spring of 1907 and the reestablished lake was named Salton Sea. 
So, the Sea is an accident created by both natural and man-made 
events. Since its creation, the Salton Sea has been sustained 
by flows consisting largely of agricultural drainage from the 
Imperial, Coachella and Mexicali valleys and from rainfall, 
storm runoff and groundwater inflow. Since the Sea exists in a 
closed basin, evaporation is its only outflow. Because of this 
fact, the high and increasing levels of salinity of the Sea's 
water is its greatest and best-known problem. Currently, the 
Sea is about 25 percent saltier than the ocean and 
approximately 11 thousand tons of salt are added every day. 
This chart illustrates the current trend.
    Additionally, for the past several decades, concerns about 
elevation at the Salton Sea have been linked to increased 
agricultural runoff, above-average rainfall and increasing 
wastewater flows from Mexico. The rising water has damaged some 
agricultural, recreational and residential properties along the 
Sea's shores.

The Salton Sea Authority

    Over the years groups of many kinds have organized seeking 
to solve the problems of the Salton Sea. They were never short 
on ideas, but always short on funding.
    In 1986, 20 interested agencies joined to form the Salton 
Sea Task Force with a goal of finding a workable plan to 
stabilize the elevation and salinity of the Salton Sea. The 
Task Force was organized under the California Resources Agency 
at the direction of the Governor of California. The Task Force 
studied solar pond technology, pump-out facilities and diked 
impoundments, among other options, along with possible funding 
sources. A preliminary report was released by the Task Force in 
1988 showing pump-out/solar pond technology to control 
elevation and salinity might be feasible, although certainly 
costly. While the work of the Task Force did not result in the 
start of a project, it did, in 1993, lead to the formation of 
the Salton Sea Authority--a joint powers agreement among the 
Counties of Imperial and Riverside, Imperial Irrigation 
District and the Coachella Valley Water District. The Authority 
was organized to work with the State of California, the Federal 
Government and the Republic of Mexico to develop programs to 
ensure continued beneficial uses of the Salton Sea. Over the 
last two years, the Authority has worked intensively with state 
and Federal agencies to develop practical, affordable and 
effective solutions to reducing the primary problem facing the 
Sea of high salinity.

Save The Sea

    The Authority faced two key questions: (1) what do we need 
to save the Sea from and, (2) what do we need to save the Sea 
for. We believe that the Sea needs to be saved from increasing 
salinity and fluctuating elevation and it needs to be saved for 
economic and environmental reasons. The Authority recognizes 
the unique and valuable nature of the Sea as a national and 
regional resource, and recognizes the need to address its 
economic and environmental problems. As an agricultural 
drainage reservoir, the Sea is critical to the agricultural 
economics of the Imperial, Coachella and Mexicali valleys. In 
addition, there are other extensive developments around the 
Sea, including geothermal, recreational and cultural, which 
need to be protected from the impacts of rising salinity and 
fluctuating elevation.
    From an environmental perspective, the Sea provides 
important and diverse habitat for resident and migratory 
wildlife. The Salton Sea serves as a critical link in the 
Pacific Flyway for waterfowl, marsh and shore birds. We see the 
Flyway as being of great national interest and that by saving 
the Salton Sea we are in effect mitigating for the development 
that has taken place on the Coastal Plain of California, which 
is where the Flyway was previously located. It is our view that 
by reducing salinity, the environment in and around the Sea 
will be greatly improved and the problems of the Sea greatly 
reduced. This is a situation where, if we do not undertake a 
project very soon, the environmental resources of the Sea will 
be damaged in a significant and irreversible way. So, let's do 
first things first and reduce the level of salinity.
    The fluctuating elevation has been a problem and remains a 
great concern. A stable and sustainable elevation at the sea is 
of particular local interest. The Imperial Irrigation District 
and Coachella Valley Water District have spent over $44 million 
to landowners along the seashore as flooding compensation.

Our Preferred Alternative

    After extensive research and public input, last year the 
Salton Sea Authority adopted within-Sea diked impoundment as 
the preferred approach to cleaning up some areas to restore 
recreational uses. Although a specific project has not been 
identified, the designation of a diked impoundment as the 
recommended option allows the Authority to proceed with 
determining the best project alternative and eventually 
preparing the necessary environmental reports and other 
documents.
    Managing salinity with diked impoundments is based on the 
concept of providing an artificial outlet for the Sea by 
creating an evaporation pond. Water would be admitted into the 
impoundment through an inlet structure in the dike and carry a 
heavy salt load, while the relatively fresh inflows to the Sea 
from the Alamo, New and Whitewater rivers and other sources 
would reduce the salinity of the Sea. Within the impoundment, 
water would evaporate leaving the salt behind. The capacity of 
an impoundment depends on size and average depth as well as 
other factors to be defined through the feasibility analysis, 
including possibly pumping the concentrate to an acceptable 
location.
    This preferred alternative was selected after evaluating 55 
plans based on their capability of (1) reducing the Sea's 
salinity to equal that of ocean water; (2) controlling Sea 
elevation at the minus 230- to 235-foot level; (3) holding 
operations and maintenance costs to no more than $10 million 
per year and (4) using only proven technology.
    On the basis of our analysis and considerable public input, 
I would urge Congress to join the Authority and the Bureau of 
Reclamation in supporting diking as the most reasonable and 
cost effective solution to Salton Sea problems. Diking is a 
vital first step toward a permanent solution for the Salton 
Sea. By concentrating the salt in a brine pond the volume of 
material needed to be moved is reduced to a manageable level. 
Furthermore, the Salton Sea Authority would like to continue 
our effort to save the Sea as lead agency. The Authority, of 
course, will continue to work in a collaborative and 
coordinated way with local, state and Federal agencies into and 
through the implementation phase. We feel such an approach is 
the most practical, affordable and effective road to success 
and we are in the process of hiring staff for the Authority to 
do the foregoing.
    Mr. Chairman, the demand for Colorado River water in 
Southern California and throughout the lower basin is very high 
and I expect water conservation and transfers to start within 
the next few years. Given the current circumstances and the 
likely future, the Authority believes a partnership must be 
formed among the Federal, state and local interests to address 
the problems. As shown in this chart, the Authority has a 
viable method for planning, building, operating and maintaining 
a diking system and we need your help to bring this plan to 
fruition.
    The ``fix'' for the Salton Sea will be expensive and 
ongoing, but the Salton Sea Authority has limited resources, so 
we are asking for your help to save the Sea. If we do nothing, 
the Sea will continue as a drainage reservoir and the other 
economic and environmental values and uses will ultimately be 
lost. The Salton Sea never was and never will be a Lake Tahoe 
but it has been and can again be a great economic and 
environmental asset to our communities and nation. I ask you to 
join the Authority in moving forward now.
    Finally, I would like to thank you for your interest in the 
Salton Sea and the support you have given us. We look forward 
to working with you.
                                ------                                


  Statement of Bob Johnson, Regional Director, Lower Colorado Region, 
           Bureau of Reclamation, Department of the Interior

    Mr. Chairman and Members of the Subcommittee, thank you for 
the invitation to appear today. I appreciate the opportunity to 
discuss the Bureau of Reclamation's involvement in efforts to 
address important issues affecting Salton Sea in southern 
California.

Background

    The Salton Sea lies in a closed basin in the Salton Desert, 
and has existed intermittently throughout recent geologic time. 
Most recently, the Salton Sea was formed from 1906-1908 when a 
diversion of the Colorado River failed, and the Colorado River 
flowed into the Salton Desert to create the Salton Sea. The sea 
is presently about 40 miles long and 15 miles wide. Its 
greatest depth is about 45 feet. Over time, salinity levels at 
Salton Sea have increased. Presently the salinity is about 
44,000 parts per million--about 1.25 times more saline than 
ocean water.
    In this century, the Salton Sea has provided significant 
recreation, environmental and economic values to the local 
area. As the Sea's salinity has increased and overall water 
quality has decreased, these values have suffered. Recreation 
visits, for example, have dropped dramatically over the last 10 
years. During the same period, significant numbers of grebes, 
pelicans and cormorants have died at Salton Sea, and the sport 
fishery appears to be in decline.
    In an effort to address salinity and other issues at Salton 
Sea, the Congress throughout the years has established study 
programs. Reclamation's involvement dates back to the late 
1960's and early 1970's when Reclamation and the State of 
California jointly prepared a feasibility study and 
environmental impact statement for a salinity management 
project.
    In 1985, the Congress created the National Irrigation Water 
Quality Program to identify the nature and extent of 
irrigation-induced water quality problems that may exist in 
western states, including the Salton Sea. The National 
Irrigation Water Quality Program has provided a total of about 
$2.6 million to Interior Department agencies for fiscal years 
1986-1997 to conduct studies and prepare reports concerning 
irrigation-related trace elements and pesticide contamination 
in the Salton Sea. Additionally, the U.S. Geological Survey has 
conducted water quality sudies at Salton Sea and the New River, 
one of the principal inputs to the Sea
    In 1992, Congress enacted Title XI of Public Law 102-575 
which authorized the Bureau of Reclamation to participate in a 
research project to develop methods to reduce and control 
salinity, provide endangered species habitat, enhance fisheries 
and protect recreational values at Salton Sea, and report to 
Congress. In fiscal year 1998, the President requested $400,000 
in the Bureau of Reclamation's budget request for this purpose. 
Reclamation anticipates that the Congress will be provided the 
report later this year.
    In a partnership effort with the Imperial Irrigation 
District, and with support from the National Irrigation Water 
Quality Program, Reclamation since fiscal year 1996 has been 
exploring opportunities to use low technology biological 
processes to improve the quality of surface water in the 
Imperial Valley. Because waters from the Imperial Valley flow 
into the Salton Sea, this study has ramifications for the 
Salton Sea. The three-year study is well underway. 
Identification of the most contaminated drains was completed, 
and a membrane treatment process was tested in the field. 
Designs are being completed for in-drain biological treatment 
facilities.
    In addition to the roughly $2.6 million provided through 
the National Irrigation Water Quality Program, Congress has 
provided about $8.5 million more since fiscal year 1986 for 
Salton Sea efforts conducted by the Bureau of Reclamation, U.S. 
Fish and Wildlife Service and U.S. Geological Survey.
    In August 1997, the Department of the Interior sponsored 
the ``Save the Salton Sea'' workshop which brought together 
scientists to address Salton Sea problems. A report on the 
results of the workshop is expected later this year.

Alternative Solutions

    The Bureau of Reclamation is participating with the State 
of California and local entities, including the Salton Sea 
Authority in an effort to address Salton Sea concerns. 
Presently, there are more than 50 separate solutions. 
Reclamation has not evaluated all of them and is not 
recommending Federal participation in any specific alternative. 
However, I would like to provide a brief description of some of 
the alternatives under consideration.

    Diked Impoundments. A number of alternatives are variations 
on the concept of diking off portions of the Salton Sea to 
create evaporation ponds in the Salton Sea. These alternatives 
range from impounding different sizes of closed areas within 
the Salton Sea that would act as an evaporation pond, to 
compartmentalizing larger portions of the sea into separate 
zones with dikes. Some alternatives would bring fresher water 
to portions of the sea, and allow other portions to become 
highly saline.

    Pump-Out. Various proposals would create an outlet by 
pumping water out of the Salton Sea. Some alternatives would 
pump the sea water to on-shore evaporation ponds. Other 
alternatives would pump the sea water to Laguna Salada, a dry 
lake bed north of Mexico's Gulf of California. Still others 
would pump the water to a desalting plant or even to the 
Pacific Ocean .

    Other Solutions. There are a range of other alternatives 
that have been suggested. As examples, there are proposals to 
dilute the Salton Sea with surplus imported water from the 
Colorado River, and proposals for deep well injection of Salton 
Sea water.

Evaluation of Alternatives

    Reclamation, the Salton Sea Authority and the State of 
California are evaluating the proposed solutions. In public 
sessions held in California, the reviewing entities agreed on 
evaluation criteria in an effort to narrow the number of 
alternatives that could be studied in feasibility reports. 
Construction costs for various proposed solutions are estimated 
to range from $40 million to more than $2 billion. 
Additionally, there would be significant costs associated with 
conducting related scientific studies such as developing Sea 
circulation models and completing basic geologic hazard 
studies.

Conclusion

    In summary, the Bureau of Reclamation has participated in a 
number of studies related to water quality and other issues at 
the Salton Sea. At the present time, Reclamation and other 
State, local and Federal agencies are evaluating various 
proposed solutions. Reclamation does not have enough 
information to recommend Federal participation in any of the 
proposals at this time.
    Thank you for the opportunity to attend today's hearing. I 
would be pleased to answer any questions you may have.
                                ------                                


      Statement of Tom Veysey, Farmer, Imperial County, California

    Honorable Congress Members:
    My name is Tom Veysey and I am a resident of Brawley in 
Imperial County (also known as Imperial Valley), California, 
where I have farming interests and also engage in public 
service as a member of the Salton Sea Authority and serve the 
voters in District 4 on the County Board of Supervisors. 
District 4 encompasses all of Imperial County's portion of the 
Salton Sea.
    I wish to visit with you as an agricultural producer. 
Agriculture is far and away the cornerstone of the Imperial 
Valley economy and its destiny is as dependent on the Salton 
Sea for drainage as it is on the Colorado River for water. But 
producers are anxious for the Salton Sea's restoration for 
reasons beyond the role of an irrigation drain water 
repository. We take pride in our participation as community-
builders who are vitally interested in the quality of life 
available to our families and communities. We look on the 
Salton Sea as a tremendous asset with vast economic opportunity 
for all of the desert southwest and the so-called Inland 
Empire. Indeed the sea is sick, but given its restoration and 
renewed vitality, it will be a magnet for enterprise 
facilitating recreational activities and environmental 
gratification.
    In its restored state the sea will be embraced by the 
Inland Empire and Southern California as a major recreational 
and environmental resource.
    In its revitalized state, the Salton Sea will partner with 
agriculture to support the region's economy in ways that will 
not undermine its infrastructure of services. I envision a 
healthy sea as adding greatly to our tourism and visitor market 
and vastly enlarging the region's business opportunity base. 
This will provide new initiatives that should contribute to 
expanded, qualitative employment opportunities, contributing to 
better prosperity for rural and city life.
    When it is restored the sea will be essentially reliant on 
agriculture for drain water inflow to help maintain its 
elevation. The development of the sea into a healthy, thriving 
recreational mecca will bring greater understanding of its 
relationship to our region's agricultural system.
    The business of food production is fiercely competitive and 
increasingly fraught with high cost, risk and calamity. Farmers 
have to farm smarter and manage more effectively with each new 
crop year in this changing world. It will be challenging for 
agriculture to sustain a role in the new millenium as the 
principal job-producer and wealth-maker of the County. Our 
cropping patterns are now in the throes of major change from 
the traditional ones as we seek newer crops and methods to 
sustain agriculture's economic engine. However, the necessity 
to force the salts through the soils and the resulting drainage 
will continue. Some of this change is due to pests and disease 
from such indomitable foes as the Silverleaf Whitefly that 
throttled our melon deal and afflicted numerous other crops. 
Some is due to market price decline in what used to be a 
bellwether of economic vitality--vegetables. Some is due to bad 
luck such as occurred in our tremendously promising durum wheat 
industry that was dealt a crushing blow with the unjustifiable 
imposition of a quarantine following the discovery of Karnal 
bunt in Arizona. Multi-faceted industries such as cotton that 
once was a hub-bub of activity with its production, harvesting, 
ginning, warehousing and shipping long has been in decline from 
natural pests. Cattle production, another major leg of the 
County's stool of economic vitality, has waned significantly in 
need of meat and slaughtering facilities.
    Producers are struggling to find crops they can depend on 
that will yield a return. It might appear that we are not being 
true to our badge as conservationists and environmentalists 
when we plant crops that are more water-intensive than others 
and have to use chemicals to control pests and disease. But we 
sometimes have to do what we have to for survival. I remember 
when we used to take a pause in our farming in August and 
recommence in September. Now we don't stop. We really can't 
afford to. We have to make tremendous investments in plastic-
lined rows, sprinklers and drip irrigation systems to attain 
higher yields to offset the eternal crunch of spriraling input 
and handling costs. Then when our crops reach a delicate, 
critical state and are smitten with, say, a whitefly invasion 
we need to have a chemical to go with integrated pest 
management practices to protect the crop. We are trusting that 
the EPA's administration of the Food Quality Protection Act 
doesn't take away all of the means to survive major pest 
assaults and disease unless there are affordable alternatives 
and many of these appear a long way from reality.
    Little wonder that producers are interested in water 
transfer. When such transfer occurs it will provide some very 
necessary funds to producers that can be used to modernize and 
equip themselves to deal with a turbulent business environment 
so they can stay in business.
    Even when we are able to retool and fully refuel 
agriculture's economic engine in Imperial Valley, we will 
continue to need state and Federal research support to help us 
find better production practices, embracing both conservation 
and environmental needs, as well as methods to deal with pests 
and disease. The Whitefly Management Committee of Imperial 
County is spearheading a unique, applaudable association of 
county, state, university, and Federal resources which might be 
able to get that dreaded pest under control. Continued research 
on such problems will be necessary. Additional creative 
planning both within our county and in surrounding counties, 
together with the state and Federal resources might help us 
attract a cattle processing facility to the region. Alternative 
agriculture enterprises providing value-added products from 
agricultural refuse could fortify our agricultural economic 
base. And many more opportunities are before us with some 
additional research and strategic planning.
    As a producer and a general citizen, I applaud the united 
interest of our legislators in seeking serious, meaningful 
funding for the restoration of the Salton Sea as well as the 
New River. All of my life I have been associated with the 
Salton Sea. It's like an old friend whom you never want to see 
in a state of decline. As a youngster I enjoyed many 
recreational activies there. I got to know it extremely well 
one night after taking it for granted during an outing of 
fishing and water skiing, becoming incapacited and having to 
spend the night in the center of the sea and the subject of 
search parties. Two others that night weren't as fortunate as 
I, for they lost their lives. Needless to say I have a lot of 
respect for the sea. But it has pained me to witness the 
decline of the sea and nothing would please me more than to be 
a part of its restoration. That is why I am at this moment 
working with the U.S. Army Corps of Engineers and supporting 
Congressman Duncan Hunter's citizen's task force on the New 
River headed by Leon Lesica, involving our residents and 
communities in a New River cleanup project that will contribute 
importantly to the restoration of the Salton Sea. It's a 
simplified yet exciting concept of building holding ponds which 
would allow the water to rest and purify and then be released 
into the sea as it is needed to maintain the critical elevation 
posture.
    And further, I am supporting the concept of a diked 
impoundment as the preferred approach to restoring the Salton 
Sea. Salinity is clearly the most paramount problem associated 
with the restoration. Diking appears to me to offer the best 
buy for the dollar in dealing with the heavy salt load of the 
sea and its critical water level. The diked impoundment concept 
coupled with the management of cleaner inflows from the New 
River, Alamo River, Whitewater and other sources seem to me to 
be wise, doable choices. The concept also offers future 
opportunities to include other solutions which require longer 
timelines for implementation and effectiveness.
    I am glad that the Salton Sea Authority scores agriculture 
highest in its evaluation of criteria associated with the 
restoration project. In as much as Imperial County has the 
highest unemployment rate in California and the lowest median 
income, the one billion dollar industry of agriculture must be 
preserved and enhanced. We accept this challenge to change our 
future by working with you to improve this major resource and 
allow Southern California to further diversify by benefiting 
from the resources we enjoy. I have endeavored to outline for 
you some of my beliefs as a farmer why agriculture vitally 
needs the Salton Sea and why the sea cannot do with 
agriculture.
                                ------                                


 Statement of Phil Gruenberg, Executive Officer, Colorado River Basin 
                                 Region

    The Regional Water Quality Control Board, Colorado River 
Basin Region (Regional Board) is the primary responsible agency 
for water pollution control throughout California's Salton Sea 
watershed. The Regional Board regulates water pollution through 
issuance of discharge permits, enforcement orders, and 
implementation of best management practices for agriculture. 
Unfortunately, many of the Salton Sea's water quality problems 
fall outside of the realm of conventional regulatory control, 
and the primary problem--salinity--is not resolvable at all 
from the regulatory standpoint.
    A discussion will follow of the primary water quality 
problems facing the Sea (in order of perceived severity), and 
an assessment of control options and correctability.

Salinity

    Increasing salinity is the Sea's foremost problem. This 
problem was recognized over 30 years ago and as predicted back 
then appears to be directly and indirectly responsible for many 
of the Sea's adverse conditions now. The present salinity of 
the Sea is approaching 45 ppt. The salinity of ocean water is 
35 ppt. It was forecast that when salinity reached 40 ppt that 
it would begin to adversely affect the Sea's food chain and 
ultimately lead to collapse of the sportfishery. Although in 
the past 10 years the sportfishery has had its ups and downs, 
the overall trend clearly appears to be down. The food chain 
has been disrupted, Tilapia are now the dominant fish in the 
Sea, have overpopulated, and apparently become more subject to 
disease because of overcrowding. What was not forecast was that 
due to disruption of the food chain that disease would be 
passed on to waterfowl causing catastrophic dieoffs. Last year 
over 14,000 birds died at the Salton Sea which included 
threatened/endangered species.
    Although costly, correction of the Sea's salinity problem 
is relatively simple. The Sea is a closed basin and needs an 
outlet (or the equivalent thereof) to prevent salt buildup. 
Thus, the problem is naturally occurring with no identifiable 
responsible party. Potential resolution of the problem remains 
with the public via government.
    Although the solution is simple, realistic corrective 
alternatives appear to be very limited. A 1965 report prepared 
by an engineering firm for the Regional Board concluded that 
``of various plans considered for salinity control, the one 
appearing best from the economic standpoint is to dike off a 
section of the Sea to serve as a final sink for collecting 
salt.'' Thirty two years later this recommendation still seems 
to make the most amount of sense. This solution avoids the 
environmental controversy associated with transferring brine to 
outlying disposal sites and the impacts thereof. Salt would 
thus accumulate in a smaller portion of the Sea than would 
otherwise occur under a no-action scenario.
    As with any of the suggested solutions to address the Sea's 
salinity there are some negatives associated with diking. 
Foremost, is the challenge of keeping waterfowl out of the 
evaporation basin, where the existence of undesirable 
conditions due to salt buildup is likely. Another concern is 
that diking will create an unaesthetic, visually offensive 
sight. This need not be the case. Much of San Diego Bay and 
Mission Bay, for example, have been diked with attractive 
results. Dikes can be landscaped with greenbelts, access roads 
can be built, and the rock walls can be used for shoreline 
fishing. There is potential to make diking positive rather than 
negative, although of course costs will be increased somewhat 
to implement some of these improvements.
    Siting and size of a diked evaporation basin is an 
important consideration. In 1965 it was suggested that a 40 or 
50 square mile basin would suffice. However, at that time 
salinity was considerably lower, and the freshwater inflows to 
the Sea were considered stable. At present, with the Sea facing 
reduced freshwater inflows in the future as a result of water 
conservation implementation, a 40 or 50 square mile dike would 
be much too small. Diking off about a third of the Sea, 
approximately 125 square miles is a much more practical and 
workable solution. Siting of the evaporation basin should be in 
an area which is of least importance for fish and wildlife, and 
recreational activity. The southern portion of the Sea near the 
New and Alamo River deltas is believed to be important for fish 
spawning and is also the site of the Federal wildlife refuge. 
The sportfishery has centered on this area as the premier 
fishing location since its inception. Tinkering with the 
hydrology of the Sea in this area could be very disruptive. To 
the contrary, the northern deep-water portion of the Sea is not 
considered a prime fishery area and with less fish present 
attracts less waterfowl. Diking this area off at the 20-30 foot 
depth contour would not cut off the shoreline communities' use 
of the Sea and would simply remove the least utilized and least 
important northerly mid-portion of the Sea from use.
    A proposal to create a two-way exchange with the Gulf of 
California has some attractive facets to it, but should be 
disregarded for a number of reasons. Foremost, is that the 
inflow of ocean water (which is much more saline than the 
present inflows into the Sea) coupled with the high evaporation 
rate will exacerbate the Sea's salinity problem, rather than 
improving it. Other problems are political (securing and 
maintaining permission from Mexico), cost (upwards of $1 
Billion), and biological (undesirable marine life from the 
ocean such as stingrays may find the Sea to their liking and 
become dominant).
    In summary, salinity control is technically the simplest of 
the Sea's water quality problems to resolve, and also the 
problem whose correction will provide the most positive return. 
As time goes on, and salinity further increases, it will become 
more costly and difficult to correct. This needs to be 
addressed expeditiously as a number one priority.

Selenium

    Although selenium has not created problems anywhere near 
the magnitude of those at the Kesterson Wildlife Refuge in 
Central California, this remains a concern because of a health 
advisory posted recommending limited consumption of Salton Sea 
fish and fears of wildlife biologists that increases could lead 
to bird mortality.
    Selenium is present in Colorado River at about 2 ppb and 
concentrates to about 5-8 ppb in drainage water in Imperial 
Valley. Selenium apparently enters the food chain in the Sea in 
the New and Alamo River delta area with some of the element 
settling in the bottom muds. The actual selenium level of 
Salton Sea water in the middle of the Sea is relatively low at 
1 ppb or even less.
    Although regulatory control of selenium is possible, 
regulation must consider technical and economic practicalities. 
Presently the Regional Board has set a water quality objective 
of 5 ppb for selenium. Much of the inflow to the Salton Sea is 
in noncompliance with this objective. Imperial Irrigation 
District, as a primary responsible agency, is cooperating with 
the Regional Board in addressing reduction of pollutants in 
drainage water inflows to the Sea via implementation of best 
management practices. Unfortunately economically practical 
technologies for reducing selenium levels have presently not 
been developed. So realistically the present goal is to merely 
keep selenium from increasing. This is actually more difficult 
than it sounds, since most water conservation which is being 
implemented in Imperial Valley will focus on efforts which tend 
to decrease the volume of low selenium drainage water in the 
system and thus increase the proportion of high selenium tile 
drainage water.
    Because selenium levels are relatively low in Salton Sea 
water, an in-Sea diked evaporation basin, located away from the 
high selenium inflows at the south end of the Sea, is not 
expected to accumulate problematic amounts of selenium.

Nutrients

    The Sea has long been regarded as a highly eutrophic water 
body. Nutrients enter the Sea primarily via agriculture 
drainage conveying crop fertilizers, and sewage from Mexico. On 
the positive side the nutrients have helped make the Sea one of 
California's most productive inland sportfisheries. On the 
negative side eutrophic conditions can lead to unaesthetic 
algal blooms, oxygen depletion, fish kills, and foul odors. As 
with selenium, nutrients are amenable to regulatory controls, 
but at present stringent control on agricultural sources is 
considered technically and economically impractical. However, 
agricultural sources are required to investigate/implement best 
management practices to reduce pollutants including nutrients.
    There has been some discussion of utilizing wetlands 
treatment to remove nutrients from agricultural drainage water. 
This could be beneficial with proper design, and should be 
pursued. Using wetlands to improve New River water is 
potentially more problematic partially due to variable levels 
of pollutants beyond our control and should be pursued much 
more cautiously.

Pollution from Mexico

    Mexicali, a City of about one million people, discharges 
raw and inadequately treated sewage, industrial waste, and 
solid waste into the New River some 60 miles upstream of the 
discharge point into Salton Sea. Although the gross pollution 
around the border City of Calexico presents a severe public 
health hazard, the impacts to Salton Sea appear to be much 
reduced due to a natural cleansing process before reaching 
Salton Sea.
    With Mexico now accepting U.S. economic and technical 
assistance in addressing cleanup of the New River, real 
progress is now being made, and it is possible that the river 
will be substantially cleaned up in two to three years if 
present efforts continue.
                                ------                                


   Statement of Philip A. Roberts, Ph.D., Associate Dean, College of 
Natural and Agricultural Sciences, University of California, Riverside, 
                               California

    Introduction: This testimony presents information on the 
proposed role of the University of California in the 
coordination and conduct of research addressing solution 
options to the stabilization and water quality improvement of 
the Salton Sea. It represents not only the relevant research 
resources in faculty expertise, programs, and facilities of the 
Riverside campus of the University of California, but in 
addition, the resources of the entire University of California 
system.
    While there have been a number of independent research 
activities and assessments made on the Salton Sea over the last 
several years, a continual challenge to determining viable 
options to solve the problems has been the complexity of the 
issues involved. These issues include hydrology, engineering, 
biological/ecological systems, soil and toxics chemistry, 
bioremediation, salinity and wastewater management, economics, 
agricultural interests, and human social/cultural 
considerations. Although good scientific evaluations and 
baseline data are available to address some component aspects, 
the major gap in our ability to advise policy makers is a 
holistic analysis of potential solutions. A holistic approach 
that integrates the component issues to determine and implement 
the best solution must be followed in order to understand the 
``cause effect-solution'' relationships for all component 
parts. For example, a solution to stabilizing salinization and 
elevation of the Salton Sea can be designed effectively from 
the engineering standpoint, but that design must be made while 
understanding the implications for the biological and 
ecological systems, and within a full economics context.
    Until now, the proposed options, including their 
evaluations, have lacked an integrated and interdisciplinary 
understanding. The University of California proposes to provide 
the objective forum and a core of scientific expertise to 
pursue a comprehensive, research-based analysis of the primary 
proposals for solutions. We believe such an integrative and 
inter-disciplinary approach will allow the policy makers to 
make the most rational and informed decisions for a solution. 
This approach will serve the best long-term interests of the 
state and the nation, from environmental, cultural, and 
economic perspectives.
    Faculty research expertise: About 25 faculty at UC 
Riverside have expertise bearing on the many complex issues 
which face the Salton Sea. We have prepared a directory of 
researchers at UCR, ranging from soil and water scientists who 
study such issues as salinity and drainage, to engineers who 
may deal with wastewater treatment or bioremediation, to 
biologists who are looking at the impact on fish and birds, to 
economists who evaluate issues related to resource management 
and the future development of the region. We are in the process 
of compiling a directory of programs and expertise for the 
entire UC system, within which is found 12 percent of the 
water-related expertise in the country. We have initiated 
contact with scientists at Berkeley, Davis, Irvine, UCLA, San 
Diego, Santa Barbara, and Los Alamos. These scientists 
represent the full range of specialized knowledge and research 
capability needed to provide the comprehensive, objective 
analyses to target the solution and to fully understand its 
environmental, economic, and cultural implications. To 
accomplish this, the coordination of scientists from several UC 
campuses as well as other institutions and agencies will be 
necessary. As described in the introductory remarks, the 
problems facing the Salton Sea are so complex that it will take 
more than one entity to solve them.
    The University of California is the state's land grant 
institution. As such, it is our mission to provide the 
educational, research, and public service programs which can 
help policy makers such as this Congressional Subcommittee deal 
with problems such as the Salton Sea. The University is well 
positioned to serve in the role of ``honest broker,'' providing 
coordination of research efforts and offering sound, scientific 
based information. Therefore, we propose to coordinate both 
internally, among our campuses and national laboratories, and 
with state and Federal agencies and other universities
    Program expertise and Facilities: In addition to our 
faculty expertise, the University of California has a number of 
programs and facilities relevant to the Salton Sea:

        <bullet> The Salinity and Drainage Research Program, 
        headquartered at UCR, was initiated in 1985 to mobilize a team 
        of experts to address critical agricultural and environmental 
        problems in the San Joaquin Valley. Working closely with state 
        and Federal agencies, this consortium of scientists is 
        developing, interpreting, and disseminating research-based 
        information on salinity, drainage, selenium, and other toxic 
        element problems similar to those found at the Salton Sea.
        <bullet> The University's Water Resources Center, founded in 
        1957, is a multi-campus research unit established to stimulate 
        and support research on water related issues. Its broad 
        research focus includes conservation, development, management, 
        distribution, and utilization of water resources with a view to 
        their optimum present and future use. The Water Resources 
        Center maintains close relationships with governmental 
        agencies, quasi-public organizations, and other research 
        institutions for the purpose of keeping both the University and 
        outside organizations aware of one another's activities.
        <bullet> The U.S. Salinity Laboratory, a USDA facility located 
        on the Riverside campus, is the only research facility in the 
        nation devoted specifically to the study and amelioration of 
        salinity and pesticide related agricultural and environmental 
        problems. We have discussed with the U.S. Salinity Lab the 
        desirable collaborative involvement in the Salton Sea effort of 
        their scientists, many of whom have adjunct appointments at UC 
        Riverside.
        <bullet> UC MEXUS, or the University of California Institute 
        for Mexico and the United States, is another multi-campus 
        research unit, headquartered at UCR. UC MEXUS has recently 
        undertaken a long-term research focus on binational issues of 
        water and the environment in the California-Mexico border 
        region, including the lower Colorado River basin. The 
        binational, policy oriented focus of UC MEXUS will be critical 
        to assessing and implementing any solution that involves 
        Mexico.
        <bullet> A newly formed Center for Conservation Biology at UCR 
        is intended to assist in the conservation of species and 
        ecosystems for the benefit of society by facilitating the 
        collection and dissemination of objective, scientific 
        information. The Center seeks to provide information to guide 
        the development of sound public policy for addressing conflicts 
        such as the Salton Sea. Several dozen UCR faculty--ecologists, 
        entomologists, botanists, population biologists, soil 
        scientists, engineers, natural resource specialists and 
        others--comprise a rich pool of academic talent and expertise 
        aimed at assisting Southern California address these problems.
        <bullet> UCR's 540-acre Coachella Valley Agricultural Research 
        Station is just four miles from the north shore of the Salton 
        Sea, offering nearby research facilities. These facilities 
        could be used to serve collaborative research efforts involving 
        scientists from other UC campuses and other universities and 
        state and Federal agencies.
    Coordination and Research plan: Because of this 
concentration of programs and expertise, and because of our 
proximity to the Salton Sea, UC Riverside has been asked to 
coordinate research efforts for the UC system. In addition, we 
will coordinate with state and Federal agencies and other 
universities. The University is now in the process of garnering 
internal and external resources to pull together an action team 
of UC and other scientists. Using this as seed money, we hope 
to attract state and Federal funding as well. Historically, it 
has been shown that state and Federal support for University 
programs is leveraged 4:1 by UC resources of scientists, staff, 
facilities, equipment, and funds.
    Research: We see three broad areas in which research is 
imperative to the eventual solution of the Salton Sea. These 
are water, biology, and economics. As illustrated in Attachment 
1, these issues are overlapping. You cannot look at engineering 
a solution to stabilize the Sea's elevation, for example, 
without considering the hydrology, economics, and the impact on 
fish and waterfowl. By providing a forum for scientific 
exchange, the University can help both to look at the overall 
picture, and to integrate the research that has been conducted 
in each of these broad areas. It is at the intersection of 
these three issues that the solution to the Salton Sea must 
lie. It is at this nexus where good public policy decisions can 
be made.
    Although the Salton Sea has already been studied in some 
detail (fine studies have been done by the Bureau of 
Reclamation, various consultants, and most recently Los Alamos 
National Laboratory), the needed multidisciplinary, 
comprehensive approach that we propose has not been put into 
action. What we propose to do that is different from previous 
studies is to marshal the interdisciplinary scientific 
expertise into an action oriented approach along a defined 
timeline, as follows.
    Action Plan: We envisage a four-phase, long-term process, 
as summarized in Attachment 2. We have identified timelines 
here, but it must be stressed that the phases--like the subject 
areas in Attachment 2--may be overlapping and flexible.
    Phase I is the evaluation phase. We propose to look at 
existing data to determine what is known and where the gaps 
are. The purpose is to integrate priorities across disciplines, 
as described above. The timeframe is short: 2-3 months. 
Likewise, this phase is relatively inexpensive, costing 
$25,000-$50,000 to bring together a team of scientists to 
review existing research and make recommendations. While we 
recognize that some attempts at this have been made that added 
to the information base, most recently the summit in Palm 
Springs coordinated by the U.S. Fish and Wildlife Service, 
there were important gaps in represented expertise such as 
economics.
    Phase II is the testing phase. The feasibility of proposed 
options will be tested by conducting solution-oriented and 
demonstration research. This may be done by modeling or, in 
some cases--such as constructed wetlands--by field testing. The 
purpose is to evaluate solutions to enable policy makers to 
decide on a course of action. The timeframe could be 1-3 years, 
and the research testing of various solution components could 
be conducted in a staged manner. For example, evaluation of 
some solution components such as wetlands and habitat 
restoration, could be done at the same time primary solution 
components such as pipeline or impoundment engineering were 
already being implemented. Effective coordination of the 
testing will be vital. The scientific summit recently held by 
the U.S. Fish and Wildlife Service estimated the cost of 
research to be as much as $40 million, but it could be 
considerably less, pending the outcome of Phase I.
    Phase III is the implementation phase. It is not the 
University's role to implement the solution to the Salton Sea, 
but rather to conduct research to assess how well the solution 
is working as it is being implemented. The purpose of such 
research is to determine if the solution is performing as 
expected and what adjustments, if any, need to be made. The 
estimated timeframe is 2-5 years, but could be longer. The cost 
of the solution itself ranges widely, depending on the 
option(s) chosen. The cost of research during this phase would 
be only a small fraction of the cost of the selected solution.
    Phase IV is the long-term management and monitoring phase. 
Once a solution is implemented, we cannot simply walk away. The 
University will be here for the long haul, evaluating the 
solution and its hydrological, biological, and economic impacts 
over the long term. The longer term commitment under this phase 
is compatible with the University's responsibility as the land 
grant institution for the state of California. It will provide 
a continuing objective scientific partner for the Salton Sea 
region as a whole, with the overall sustained health of the 
Salton Sea as a motivational force. The timeframe, of course, 
is indefinite, and the cost a small percentage of the operating 
costs of any solution which is implemented.
    The four-phase approach is necessary whatever the chosen 
solution. The possible courses of action include not only the 
active salinity and elevation management approaches, but also 
the option to allow the Salton Sea to salinize (see Attachment 
3, fact sheet). In the event that this becomes the option 
chosen by policy makers, it too would require important 
research-based inputs for its management. For example, lowering 
nutrients and pathogens entering from river inflow and 
improving waterfowl habitat along the rivers and delta would 
require testing.
    Programmatic mechanism: Our proposed plan is action-based 
and solution-targeted recognizing the immediacy of the problem 
and the need for rapid policy decisions. We propose to 
coordinate the Salton Sea efforts through an existing 
University-wide program structure that will provide a flexible 
and responsive vehicle for scientific exchange as well as 
research coordination and funding. The UC Centers for Water and 
Wildland Resources is a multi-campus research unit that focuses 
activities on solving priority problems in agriculture, natural 
resources, and human development throughout California. It 
provides an umbrella mechanism for research and scientific 
exchange for four distinct programs dealing with water and 
wildland issues. One existing program under the Centers is the 
highly successful Salinity/Drainage Research Program, described 
earlier. After consultation with the leadership of the Centers 
and the UC Division of Agriculture and Natural Resources, we 
have determined that the Salton Sea action program outlined 
here should be a new branch of the Centers for Water and 
Wildland Resources. This branch will be headquartered at UC 
Riverside. It will take advantage of the experienced 
programmatic structure in place, and it will have independence 
from existing programs to facilitate its responsiveness to the 
proposed timeline for action. Our ability to provide this much 
needed coordination and action program is dependent upon our 
ability utilize University seed money and expertise to attract 
new state and Federal resources.
    Summary: This testimony has outlined a plan for how the 
University can best serve the state of California and, indeed, 
the nation, in dealing with the Salton Sea. The University of 
California is the only entity with the full breadth and depth 
of expertise required in the needed areas of biology, 
economics, soil and water/engineering. It can bring to bear 
expertise, facilities, and programs, including a coordinating 
program structure, as well as some seed money. The plan will 
overcome existing coordination problems, whereby UC and other 
scientists have been responding on an ad hoc basis. The 
University will provide objective, scientific-based research 
information to help policy makers form decisions, and 
coordinate across entities, with no agenda or bias of its own. 
Finally, the proposed research will be done in parallel with 
the chosen solution along the phased timeline.
                                ------                                


 Statement of Dr. John H. Zirschky, Acting Assistant Secretary of the 
                           Army (Civil Works)

    Mr. Chairman and Members of the Subcommittee:
INTRODUCTION

    I am John Zirschky, Acting Assistant Secretary of the Army 
for Civil Works. Thank you for inviting me to testify on the 
U.S. Army Corps of Engineers (Corps) involvement in the 
evaluation of the causes and proposed solutions for addressing 
the water quality and lake level stabilization issues facing 
the Salton Sea. My statement will consist of brief descriptions 
of the Corps environmental expertise in the civil works arena; 
our project evaluation and management strengths; and the past 
and current involvement of the Corps in Imperial County, 
particularly in the Salton Sea basin, California.
    The Corps has a long history in water resources management, 
including environmental and ecosystem protection and 
restoration. The Corps role as this Nation's first 
environmental protection agency dates back to the ``Refuse Act 
of 1899.'' The Act states that:
        ``It shall not be lawful to throw . . . any refuse matter of 
        any kind or description whatever other than that flowing from 
        the streets and sewers . . . into any navigable water of the 
        United States, or into any tributary of a any navigable water . 
        . .''
    The Army was put in charge of enforcing this statute. We 
kept the garbage out of the rivers. Even earlier than that, in 
1883, the Corps was entrusted with the sensitive ecosystem of 
Yellowstone National Park, which had been established 11 years 
earlier.
    Today, the Corps has increased the priority of its 
environmental mission and gained widespread expertise and 
experience in all phases of environmental planning and 
ecosystem restoration.

CORPS ROLE IN ENVIRONMENTAL PROBLEM SOLVING

    For more than two centuries, the Corps of Engineers has 
been committed to providing comprehensive engineering, 
management and technical support to the Nation. It is the Corps 
ecosystem restoration activities and problem-solving approach 
that I will highlight today.
    The Corps interdisciplinary planning and engineering staff 
combines the resources necessary to identify problems and to 
develop, evaluate, and implement solutions to these problems. 
The well trained staff is accustomed to analyzing difficult 
problems and developing implementable solutions, and 
understands the importance of testing these solutions under the 
light of public scrutiny. In addition to the many planners, 
engineers, economists, biologists, and social scientists at 
Corps district offices, the Corps maintains very specialized 
technical expertise at several support facilities or 
laboratories located throughout the United States that can be 
mobilized to assist on an as needed basis. The Waterways 
Expenment Station in Vicksburg, Mississippi and the Hydrologic 
Engineering Center in Davis, California are world-renowned 
centers of expertise. It is the unique problem solving 
capability of the Corps that sets it apart and makes it a 
leader in the environmental restoration area.
    The Corps is a leader in ecosystem restoration. We have 
broad experience on a range of related technical and legal 
issues, such as protection of private property rights and 
public involvement, as well as extraordinary experience in 
resolving mul-

tiple stakeholder issues. Our experience has increased through 
such projects as the following:

        --Restoring the south Florida ecosystem including the Florida 
        Everglades;
        --Helping ensure the future health of Lake Tahoe;
        --Planning and executing the highly successful Upper 
        Mississippi River Environmental Management Program;
        --Working sensitive hypoxia and other issues on the Gulf Coast;
        --Louisiana Coastal Wetlands Conservation and Restoration 
        Program;
        --the ``Project Modifications for the Improvement of the 
        Environment'' program, with such projects as Yolo Basin 
        Wetlands in California, Sammamish River Restoration in 
        Washington, Salt Bayou, Texas, and Anacostia River and 
        Tributaries, Maryland;
        --Papua New Guinea mine operation impact consultation; and
        --the Land Management System research program.
    Further infonnation on these projects and the Corps 
capabilities is available to the Subcommittee on request.

CORPS EXPERIENCE IN IMPERIAL COUNTY

    I will turn now to a discussion of some of the Corps 
experience in Imperial County, California. The Corps earliest 
investigations in Imperial County focused on flood damage 
reduction. A 1943 investigation recommended construction of 
dikes and a dam to provide flood protection for the irrigation 
canals on the west side of the Imperial Valley. A 1976 flood 
plain report included approximate delineations of 100-year and 
500-year flood events as well as water profiles for the 10-, 
50-, and 100-year events. Following the Imperial County flood 
of 1976, which caused damages in the San Bernardino and 
Riverside areas, the Corps prepared a report describing the 
flood and summarizing its damages. Temporary emergency work was 
perfonned at Bombay Beach, consisting of strengthening a non-
Federal dike threatened by the rise in the Salton Sea water 
level. A reconnaissance level study in 1977, conducted at the 
request of the Imperial County Board of Supervisors, 
investigated flood control in the town of Ocotillo.
    In 1989, a broader study was performed to develop and 
evaluate potential solutions to flooding and related problems 
on Imperial County and San Diego County tributaries of the 
Salton Sea. Investigations included flooding threats from 
runoff from the Chocolate Mountains to the east, from several 
mountain ranges to the west, and from overflow from the New and 
Alamo Rivers. Flood damages were identified as destruction of 
canal embankments, clogging of canals with sediment, inundation 
of agricultural fields, and destruction of precise grading of 
agricultural fields by deposition of sediment.
    Under the authorization of the Flood Control Act of 1941 
(Public Law 77-228) and with funds appropriated in fiscal 
year's 1996 and 1997, a Reconnaissance Report on the Imperial 
County Watershed Study was completed by the Los Angeles 
District of the Corps in January 1997. Through evaluation of 
the baseline conditions and identification of key problems, the 
study approach was refined to focus on ecosystem restoration, 
with emphasis on the New River and Alamo River. In partnership 
with the Imperial County and Imperial litigation District 
(IID), the Los Angeles District is proceeding with a 
feasibility phase study called the Imperial County Ecosystem 
Restoration Study.
    Imperial County and the IID have mainlined support for a 
cost-shared feasibility study for the development of an 
ecosystem restoration plan for the New River and Alamo River. 
Negotiations of the Feasibility Cost Sharing Agreement (FCSA) 
between the Corps and the potential sponsors for the Imperial 
County Ecosystem Restoration Study are in the final stage. Upon 
completion of the FCSA, which includes the Final Project Study 
Plan, by the Los Angeles District, it will be submitted through 
the Corps South Pacific Division to Corps Headquarters for 
review and approval.
    The focus of the feasibility study will be to formulate and 
develop an ecosystem restoration plan for both the New River 
and Alamo River, which will concentrate on wetland and/or 
riparian habitat restoration. The Reconnaissance Report 
identified eight potential restoration sites (four on each 
river) for further consideration. The recommended plan for the 
Feasibility Study will include the design of at least one 
restoration area on each river. The development of this plan 
will require evaluation of the following water resource issues: 
(1) hydrology and hydraulics; (2) sediment transport; and (3) 
ecosystem restoration opportunities. As you are aware, water 
quality within the New River, Alamo River and Salton Sea 
Ecosystem continues to be of great concern to Federal and State 
agencies and environmental groups. Approximately 95 percent of 
the water supply needed to sustain the Salton Sea comes from 
the New River and Alamo River, which serve as collectors of 
agricul-

tural, industrial and domestic runoff water. Restoration of 
ecosystem values along these rivers which have been degraded by 
adverse water quality impacts may be accomplished by wetland 
and riparian habitat restoration measures. These restoration 
measures could contribute to the improvement of the water 
quality in the New and Alamo Rivers.
    The Corps feasibility study will implement a coordinated 
stakeholders awareness program for the development of ecosystem 
restoration opportunities. Some of the key issues consist of 
(1) existing short-term and long-term impacts to water quality 
and the ecological resources; (2) increased surface elevations 
of the Salton Sea due to inadequate flood control facilities 
within Imperial County; and (3) the lack of data on sediment 
yield and transport for both the New River and Alamo River, 
which would promote understanding of the discharge of 
agricultural drainage runoff versus river degradation. A 
technical understanding of these issues and their roles in this 
sensitive ecosystem is required to better predict future 
environmental conditions. Improving the environmental and water 
resources of the New River and Alamo River will be a major step 
towards restoring the Imperial County ecosystem.

CONCLUSION

    In summary, Mr. Chairman and other members of the 
Subcommittee, the Corps of Engineers is a leader in 
environmental problem solving. Each member of the Corps team is 
committed to integrity, quality, professionalism and caring. 
This concludes my statement. Thank you for this opportunity to 
discuss the Corps of Engineers experience and capabilities.

[GRAPHIC] [TIFF OMITTED] T5367.001

[GRAPHIC] [TIFF OMITTED] T5367.002

[GRAPHIC] [TIFF OMITTED] T5367.003

[GRAPHIC] [TIFF OMITTED] T5367.004

[GRAPHIC] [TIFF OMITTED] T5367.005

[GRAPHIC] [TIFF OMITTED] T5367.006

[GRAPHIC] [TIFF OMITTED] T5367.007

[GRAPHIC] [TIFF OMITTED] T5367.008

[GRAPHIC] [TIFF OMITTED] T5367.009

[GRAPHIC] [TIFF OMITTED] T5367.010

[GRAPHIC] [TIFF OMITTED] T5367.011

[GRAPHIC] [TIFF OMITTED] T5367.012

[GRAPHIC] [TIFF OMITTED] T5367.013

[GRAPHIC] [TIFF OMITTED] T5367.014

[GRAPHIC] [TIFF OMITTED] T5367.015

[GRAPHIC] [TIFF OMITTED] T5367.016

[GRAPHIC] [TIFF OMITTED] T5367.017

[GRAPHIC] [TIFF OMITTED] T5367.018

[GRAPHIC] [TIFF OMITTED] T5367.019

[GRAPHIC] [TIFF OMITTED] T5367.020

[GRAPHIC] [TIFF OMITTED] T5367.021

[GRAPHIC] [TIFF OMITTED] T5367.022

[GRAPHIC] [TIFF OMITTED] T5367.023

[GRAPHIC] [TIFF OMITTED] T5367.024

[GRAPHIC] [TIFF OMITTED] T5367.025

[GRAPHIC] [TIFF OMITTED] T5367.026

[GRAPHIC] [TIFF OMITTED] T5367.027

[GRAPHIC] [TIFF OMITTED] T5367.028

[GRAPHIC] [TIFF OMITTED] T5367.029

[GRAPHIC] [TIFF OMITTED] T5367.030

[GRAPHIC] [TIFF OMITTED] T5367.031

[GRAPHIC] [TIFF OMITTED] T5367.032

[GRAPHIC] [TIFF OMITTED] T5367.033

[GRAPHIC] [TIFF OMITTED] T5367.034

[GRAPHIC] [TIFF OMITTED] T5367.035

[GRAPHIC] [TIFF OMITTED] T5367.036

[GRAPHIC] [TIFF OMITTED] T5367.037

[GRAPHIC] [TIFF OMITTED] T5367.038

[GRAPHIC] [TIFF OMITTED] T5367.039

[GRAPHIC] [TIFF OMITTED] T5367.040

[GRAPHIC] [TIFF OMITTED] T5367.041

[GRAPHIC] [TIFF OMITTED] T5367.042

[GRAPHIC] [TIFF OMITTED] T5367.043


</pre></body></html>
